Case: 18-11951

Date Filed: 08/11/2020

Page: 1 of 34

[PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-11951
________________________
D.C. Docket No. 1:15-cr-20189-RNS-1

UNITED STATES OF AMERICA,
Plaintiff - Appellant,
versus
NIDAL AHMED WAKED HATUM,
Defendant - Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(August 11, 2020)
Before MARTIN, GRANT, and LAGOA, Circuit Judges.
MARTIN, Circuit Judge:
If a defendant is convicted of a money laundering scheme that caused no
financial harm to an innocently involved bank, is an order of forfeiture still

App. 1

Case: 18-11951

Date Filed: 08/11/2020

Page: 2 of 34

mandatory? We conclude that it is and reverse the District Court’s denial of the
government’s forfeiture motion in this case.
I.
A. FACTUAL BACKGROUND
Nidal Ahmed Waked Hatum is a 48-year-old citizen of Panama and
Colombia. From January 2000 to February 2009, Mr. Waked was part owner and
general manager of Vida Panama, Z.L., S.A. (“Vida Panama”), an electronics
wholesaler and exporter based in Colón, Panama. For most of this time he was
also the owner of two Miami, Florida-based corporations, Star Textile
Manufacturing, Inc. (“Star Textile”) and Global World Import & Export (“Global
World”). Vida Panama had a line of credit at the International Commercial Bank
of China (“ICBC” or the “Bank”) in Panama, while Star Textile and Global World
had accounts at Ocean Bank in Miami. Mr. Waked had signature authority on the
bank accounts of all three corporations.
Between February 2000 and February 2009, Mr. Waked engaged in a series
of so-called “mirror-image” financial transactions. Star Textile (and sometimes
Global World) would send Vida Panama invoices for sums of money between
$22,000 and $550,000, appearing to bill for electronics merchandise sold to Vida
Panama. Mr. Waked would use these invoices to justify drawing on Vida
Panama’s line of credit at ICBC, which he would in turn use to pay Star Textile or

2

App. 2

Case: 18-11951

Date Filed: 08/11/2020

Page: 3 of 34

Global World. After the transfer from Vida Panama cleared, Tamas Zafir, the
manager of Star Textile and Global World, would send a check in the same amount
from one of those corporations back to Vida Panama. Ultimately, Mr. Waked
would deposit that check in Vida Panama’s bank account.
In truth, Vida Panama was not buying merchandise from Star Textile or
Global World. These invoices were phony and Mr. Waked was using them to
launder money among his corporations. The record is murky as to the nature of the
laundered money, but regardless of the reason for the draws on Vida Panama’s line
of credit, Mr. Waked admitted to knowingly misrepresenting to the Bank how the
drawn money would be used. Because of the mirror-image nature of the scheme,
the Bank incurred no financial loss from these transactions and all draws were
repaid with interest. Nevertheless, had the Bank known of the falsehoods that
prompted these financial transactions, it would not have approved the draws on
Vida Panama’s line of credit or the wire transfers.
B. PROCEDURAL HISTORY
Mr. Waked, Mr. Zafir, Star Textile, and Vida Panama were indicted in a
three-count indictment on March 24, 2015. All defendants were charged with
conspiracy to commit money laundering in violation of 18 U.S.C. § 1956(h) and
bank fraud in violation of 18 U.S.C. § 1344(2). Mr. Waked and Vida Panama were
also charged with an additional count of conspiracy to commit money laundering

3

App. 3

Case: 18-11951

Date Filed: 08/11/2020

Page: 4 of 34

in violation of 18 U.S.C. § 1956(h). The indictment sought forfeiture from all
defendants. The charges against Mr. Zafir were dismissed on speedy trial grounds
on October 17, 2016.
On October 19, 2017, Mr. Waked pled guilty to conspiracy to commit
money laundering in violation of 18 U.S.C. § 1956(h), based on misrepresentations
to ICBC in violation of 18 U.S.C. § 1957. In return for Mr. Waked’s guilty plea,
the government agreed to dismiss the indictment as to the remaining defendants
and to dismiss the other counts against Mr. Waked after sentencing. The plea
agreement affirmatively addressed forfeiture:
The United States and the defendant will endeavor to arrive at an
agreement as to a specific sum of money that is subject to forfeiture
. . . . Should the parties not come to such an agreement, each party will
present its position to the court for a determination of the amount. The
defendant agrees to forfeit to the United States all of his right, title, and
interest in property that was involved in the commission of the offense,
or traceable to such property, in an amount to be determined by the
court. . . . The defendant agrees to the entry of a money judgment equal
to the value of the property involved in the offense which is not
otherwise recovered . . . .
R. Doc. 342 ¶ 9 (emphasis added). The parties agreed to a factual proffer setting
forth the facts of the money laundering scheme.
Mr. Waked’s guideline sentencing range was 41 to 51 months. The
government recommended a sentence of 51-months imprisonment. At sentencing,
the District Court asked the government why it requested such a high sentence
when the defrauded bank ultimately suffered no loss. The prosecutor responded
4

App. 4

Case: 18-11951

Date Filed: 08/11/2020

Page: 5 of 34

that Mr. Waked’s actions caused a large risk of harm to the bank, made worse by
the long duration of the fraud. Mr. Waked, on the other hand, requested a
downward variance to 30 months.
The District Court sentenced Mr. Waked to 27-months imprisonment. The
court subsequently entered a preliminary order of forfeiture for “all property
involved in the offense or traceable to such property” pursuant to 18 U.S.C.
§ 982(a)(1), the forfeiture statute for money laundering offenses. The property
subject to forfeiture was not set at that time. The preliminary order noted that,
pursuant to Federal Rule of Criminal Procedure 32.2(b)(2)(C) and (e)(1), the
government would be permitted to move at a later date to specify the forfeiture
amount.
The government requested forfeiture of $20,852,000. This was the total
amount of money Mr. Waked illegally transferred from Vida Panama to Star
Textile and Global World, plus the amount Vida Panama received back in mirrorimage repayments.1 At a hearing on the motion for forfeiture, the government
sought to proceed under the substitute forfeiture provision of 21 U.S.C. § 853(p),
which is incorporated into money laundering forfeiture pursuant to 18 U.S.C.
§ 982(b)(1). Section 853(p) provides for forfeiture of “any other property of the
1

We take no position as to whether this is the correct amount. Any reference in this
opinion to the amount of money transferred or the number of fraudulent transfers is derived from
the District Court record.

5

App. 5

Case: 18-11951

Date Filed: 08/11/2020

Page: 6 of 34

defendant” up to the value of the forfeitable property when it is no longer in the
defendant’s possession. The government conceded there were no proceeds of Mr.
Waked’s money laundering offense, but argued that, under the broad “involved in”
language of 18 U.S.C. § 982(a)(1), forfeiture of all the money Mr. Waked
laundered was proper. Mr. Waked responded that the District Court was under no
obligation to order forfeiture because the laundered money had already been
returned to the Bank. Mr. Waked also argued that forfeiture money judgments are
not authorized by statute.
At the conclusion of the forfeiture hearing, the District Court agreed with
Mr. Waked and denied the government’s motion for forfeiture. The court denied
forfeiture based on “the unique circumstances of this case[,] where Mr. Waked
returned all of the money plus interest.” The District Court followed its ruling with
a written order acknowledging that forfeiture is mandatory but declining to impose
it because the statute’s purposes—“to ensure that criminals do not retain money for
themselves and to punish defendants by transferring ill-gotten gains to the United
States”—would not be served here. The court also said that even if it were
required to impose a forfeiture money judgment, the government’s requested sum
of $20,852,000 would be unconstitutionally excessive. Instead, the court would
order $520,000 ($10,000 for each of the 52 transactions).

6

App. 6

Case: 18-11951

Date Filed: 08/11/2020

Page: 7 of 34

The government submitted an emergency motion pursuant to Federal Rule
of Criminal Procedure 35(a) asking the District Court to correct Mr. Waked’s
sentence and order forfeiture. The government again sought $20,852,000, but now
also requested an alternative judgment of $10,426,000 (the undisputed amount Mr.
Waked caused Vida Panama to send in fraudulent transfers). At a hearing on the
Rule 35(a) motion, the District Court said it was still having “a hard time getting
[its] head wrapped around the idea that if the money goes back to the original
victim before there’s any prosecution, how is there any money to recover?” So it
denied the government’s request for relief. In addition to the reasons stated in its
original order, the District Court also cited to the language in the plea agreement,
saying that, since Mr. Waked returned all the laundered money to the Bank, there
was no money to “recover.”
This is the government’s appeal of the final judgment, the denial of the
request for forfeiture, and the denial of the Rule 35(a) motion. The government
urges reversal on two fronts. First, the government argues the District Court was
under an obligation to order forfeiture, and that no relevant exceptions relieved it
of this obligation. Second, assuming the District Court is required to order
forfeiture, the government further argues the court wrongly concluded that
forfeiture in the amount of the laundered funds would violate the Eighth
Amendment’s prohibition against excessive fines.

7

App. 7

Case: 18-11951

Date Filed: 08/11/2020

Page: 8 of 34

II.
“[W]e review de novo the district court’s legal conclusions regarding
forfeiture and the court’s findings of fact for clear error.” United States v.
Elbeblawy, 899 F.3d 925, 933 (11th Cir. 2018) (quotation marks omitted). We
also review de novo the district court’s determination of whether a fine is
constitutionally excessive, while reviewing for clear error the factual findings
made by the district court in conducting the excessiveness inquiry. United States
v. Bajakajian, 524 U.S. 321, 336 n.10, 118 S. Ct. 2028, 2037 n.10 (1998). The
government must prove the elements of criminal forfeiture under 18 U.S.C.
§ 982(a)(1) by a preponderance of the evidence. United States v. Hasson, 333 F.3d
1264, 1277 (11th Cir. 2003).
III.
A. FORFEITURE OVERVIEW
A person convicted of federal money laundering “must forfeit to the
government all property that is either ‘involved in’ that violation or traceable
thereto.” United States v. Seher, 562 F.3d 1344, 1368 (11th Cir. 2009) (quoting,
inter alia, 18 U.S.C. § 982(a)(1)). Property eligible for forfeiture “includes that
money or property which was actually laundered (‘the corpus’), along with ‘any
commissions or fees paid to the launderer and any property used to facilitate the
laundering offense.’” Id. (alteration adopted) (quoting United States v. Puche, 350

8

App. 8

Case: 18-11951

Date Filed: 08/11/2020

Page: 9 of 34

F.3d 1137, 1153 (11th Cir. 2003)). While § 982(a)(1) provides the substantive
scope of property that may be forfeited from a defendant convicted of money
laundering, 18 U.S.C. § 982(b)(1) incorporates the procedural provisions of 21
U.S.C. § 853 to govern “any seizure and disposition of the property and any related
judicial or administrative proceeding.”
Forfeiture of property under § 982(a)(1) is part of the “historical tradition”
of “in personam, criminal forfeitures.” Bajakajian, 524 U.S. at 332, 118 S. Ct. at
2035. As such, criminal forfeiture under this section is wholly punitive and
“serves no remedial purpose.” Id. Property forfeited under the criminal forfeiture
laws is conveyed to the United States, not the victim or any other third party. See
United States v. Joseph, 743 F.3d 1350, 1354 (11th Cir. 2014) (per curiam).
B. OBLIGATION TO ORDER FORFEITURE
1. The Mandatory Nature of Money Laundering Forfeiture
Section 982(a)(1) says that district courts “shall order” forfeiture for
defendants convicted of money laundering. The Supreme Court has made clear
that when Congress provides that a district court “shall order” forfeiture, it “could
not have chosen stronger words to express its intent that forfeiture be mandatory.”
See United States v. Monsanto, 491 U.S. 600, 607, 109 S. Ct. 2657, 2662 (1989).
Although Monsanto arose in the context of forfeiture under 21 U.S.C. § 853(a), our
sister circuits have had no trouble applying it to § 982(a)(1). See, e.g., United

9

App. 9

Case: 18-11951

Date Filed: 08/11/2020

Page: 10 of 34

States v. Carter, 742 F.3d 440, 446 (9th Cir. 2014) (per curiam); United States v.
Hampton, 732 F.3d 687, 691 (6th Cir. 2013). Neither do we.
Because forfeiture under § 982(a)(1) is mandatory, to the extent the District
Court’s denial of the government’s motion was based on “equitable
considerations,” such as the statute’s purpose, this ruling was in error. See United
States v. Blackman, 746 F.3d 137, 143 (4th Cir. 2014). The only way the District
Court could avoid imposing forfeiture in this case is if a requirement for imposition
of forfeiture was not satisfied. We must now turn to the statutory definition of
property for Mr. Waked’s laundering offense and ask whether any such property
existed in this case.
2. Whether There Was Property “Involved in” the Laundering Scheme
The government seeks forfeiture based on the corpus of funds Mr. Waked
laundered. It does not seek forfeiture of property used to facilitate the money
laundering or any commissions or fees that Mr. Waked received in connection with
the scheme. See Oral Arg. Recording (Feb. 11, 2020) at 16:50–16:57. Thus, this
appeal comes down to whether there was any property “involved in” Mr. Waked’s
money laundering scheme such that forfeiture is mandatory. See 18 U.S.C.
§ 982(a)(1). If there was no such property, the District Court’s failure to order
forfeiture would be harmless error.

10

App. 10

Case: 18-11951

Date Filed: 08/11/2020

Page: 11 of 34

Mr. Waked makes two broad arguments for why forfeiture is not authorized
against him. First, he says that forfeiture money judgments are not permitted by
statute and, as a result, the money he laundered is not “property” for purposes of
§ 982(a)(1). Second, for a variety of reasons, he says the laundered money cannot
be used to calculate his forfeiture obligation because the money was returned to the
Bank. We reject both arguments and rule that the money Mr. Waked laundered
was property “involved in” his offense.
a. Forfeiture Money Judgments
We first address Mr. Waked’s argument that the money he laundered cannot
be considered property “involved in” the offense because forfeiture money
judgments are not authorized by statute.
Mr. Waked is right to concede that our precedent condones forfeiture money
judgments. In both Seher and Puche, our Court approved forfeiture money
judgments against defendants convicted of money laundering. Seher, 562 F.3d at
1355, 1373–74; Puche, 350 F.3d at 1153. And in Elbeblawy, we explained that
money that is the “proceeds” of a criminal offense “constitute[s] a defendant’s
interest in property” and is subject to forfeiture via an in personam money
judgment. 899 F.3d at 940 (quotation marks omitted). We recognize that the
government seeks forfeiture from Mr. Waked under 18 U.S.C. § 982(a)(1), which
does not, as many other substantive forfeiture provisions do, reach only “proceeds”

11

App. 11

Case: 18-11951

Date Filed: 08/11/2020

Page: 12 of 34

of the offense. See, e.g., 18 U.S.C. § 982(a)(2), (7); 21 U.S.C. § 853(a). However,
this distinction is not material here. A defendant clearly has a personal interest in
the corpus of funds he laundered.2 See Seher, 562 F.3d at 1372; see also United
States v. Huber, 404 F.3d 1047, 1056 (8th Cir. 2005) (explaining that § 982(a)(1)
permits forfeiture money judgments).
The Supreme Court’s decision in Honeycutt v. United States, 581 U.S. ___,
137 S. Ct. 1626 (2017), does not change this analysis. Honeycutt held only that a
district court may not hold members of a conspiracy jointly and severally liable for
property that one conspirator, but not the other, acquired from the crime. See id.
at 1630, 1632. In holding that joint and several liability is not permitted under the
forfeiture laws, the Supreme Court did not rule on the question of whether money
judgments are unauthorized. See United States v. Gorski, 880 F.3d 27, 40–41 (1st
Cir. 2018) (noting “Honeycutt did not rule on” the question of whether money
judgments are authorized by statute (quotation marks omitted)); see also United
States v. Bikundi, 926 F.3d 761, 794 (D.C. Cir. 2019) (per curiam) (stating that “it
is unclear whether Honeycutt’s logic extends to” forfeiture under § 982(a)(1)), cert.
denied, 591 U.S. ___, ___ S. Ct. ___ (June 22, 2020) (No. 19-1020). But in any

2

There is an exception to this rule for intermediaries who “handled but did not retain the
property in the course of the money laundering offense” and did not “conduct[] three or more
separate transactions involving a total of $100,000 or more in any twelve month period.” 18
U.S.C. § 982(b)(2). These circumstances do not apply to Mr. Waked.

12

App. 12

Case: 18-11951

Date Filed: 08/11/2020

Page: 13 of 34

event, rather than “abolishing in personam judgments against conspirators, the
[Honeycutt] Court presumed the continued existence of in personam proceedings
when it stated that the statute at issue there ‘adopt[ed] an in personam aspect to
criminal forfeiture.’” Elbeblawy, 899 F.3d at 941 (second alteration in original)
(quoting Honeycutt, 137 S. Ct. at 1635).
Unless and until Congress, the Supreme Court, or this Court sitting en banc
changes the law of forfeiture, we will follow this Court’s precedent permitting
forfeiture money judgments.
b. The Laundered Money
Mr. Waked makes several arguments for why, even if forfeiture money
judgments are allowed by statute, the District Court was right not to order
forfeiture against him. First, he argues that imposition of forfeiture against him
would be “impermissible double counting” because he returned the money to the
Bank. Second, he argues that the interest in the laundered money was Vida
Panama’s, not his. Finally, he argues the property for which forfeiture is sought
was not “tainted,” and thus cannot be ordered forfeited. We reject all three
arguments.
No court has directly confronted the question of whether laundered money
that winds up back with a victim of the scheme is still property “involved in” the
offense for forfeiture purposes. But two courts have examined a related question

13

App. 13

Case: 18-11951

Date Filed: 08/11/2020

Page: 14 of 34

in the context of 18 U.S.C. § 982(a)(2), which provides for forfeiture of “any
property constituting, or derived from, proceeds” obtained as the result of certain
financial crimes. In United States v. Boulware, 384 F.3d 794 (9th Cir. 2004), the
defendant was convicted for, among other things, making false statements to obtain
a loan from a financial institution, thereby triggering § 982(a)(2)’s forfeiture
obligation. Id. at 813. Although the defendant repaid the loan, the Ninth Circuit
held he was not entitled “to a set-off” for otherwise forfeitable property that he
returned to the defrauded institution. Id.3 The Ninth Circuit noted that
“§ 982(b)(1) incorporates the provisions of 21 U.S.C. § 853(c),” which provides
that the government’s interest in forfeitable property vests upon the commission of
the criminal act. Id. It is not difficult to apply this principle to money laundering,
where the government’s interest in the corpus vests “the moment” such property is
laundered. See United States v. McCorkle, 321 F.3d 1292, 1294 n.2 (11th Cir.
2003). Even if we agreed that laundered funds voluntarily returned to the victim
are not always subject to forfeiture, see United States v. Hawkey, 148 F.3d 920,
928 (8th Cir. 1998), that is not what happened in Mr. Waked’s case. Mr. Waked
does not argue that he “returned” the fraudulently obtained funds to the Bank out

3

The Second Circuit has also held that “§ 982(a) of the criminal forfeiture statute does
not permit a defendant to offset loan proceeds that have been repaid.” United States v. Annabi,
746 F.3d 83, 85 (2d Cir. 2014)

14

App. 14

Case: 18-11951

Date Filed: 08/11/2020

Page: 15 of 34

of the goodness of his heart. His laundering scheme depended on the Bank being
repaid in full at the conclusion of each mirror-image transaction.
Mr. Waked’s reliance on cases discussing so-called “double recovery” of
property is also misplaced. In United States v. Ruff, 420 F.3d 772 (8th Cir. 2005),
the Eighth Circuit doubted that a district court could order restitution to a
government agency where that same government agency had already received
forfeiture from the defendant. See id. at 775. But no such double recovery would
result here because Mr. Waked made no payment to the government body seeking
forfeiture. This distinction animated our decision in Joseph, where we held the
district court had no authority to offset the defendant’s restitution obligation (owed
to the IRS) by the forfeited amount (owed to the Department of Justice). 743 F.3d
at 1355–56. Thus, even if our Circuit did follow the rule announced in Ruff, that
principle would not aid Mr. Waked.
Mr. Waked next argues that only his interest in the property can be forfeited,
and because the money was laundered using Vida Panama’s accounts, in personam
forfeiture against him is not appropriate. Mr. Waked’s argument on this point
relies on a misreading of this Court’s precedent in United States v. Gilbert, 244
F.3d 888 (11th Cir. 2001). Mr. Waked says Gilbert stands for the idea that any
forfeiture judgment is limited to the “[d]efendant’s interest in the actual property
subject to forfeiture.” Br. of Appellee at 11 (emphasis added) (citing Gilbert, 244

15

App. 15

Case: 18-11951

Date Filed: 08/11/2020

Page: 16 of 34

F.3d at 918–19). Yet a defendant who is convicted of money laundering still has
an “interest” in the money that was laundered, even if the money was not held in
the defendant’s personal account. See, e.g., Seher, 562 F.3d at 1368 (“A person
convicted of violating 18 U.S.C. § 1956 . . . must forfeit to the government . . . that
money or property which was actually laundered . . . .”).
As part of his plea, Mr. Waked acknowledged that he personally applied for
the credit draws and redeposited the money in Vida Panama’s account with ICBC.
He also acknowledged that he “intentionally misrepresented the nature and purpose
of these financial transactions in order to induce ICBC to issue the loans and wire
transfers.” He did all this not as a bystander, but as general manager and part
owner of Vida Panama with signature authority over its bank accounts. Allowing
Mr. Waked to escape forfeiture on the ground that the interest in the laundered
funds was actually Vida Panama’s, not his own, would relieve him of culpability
for the offense to which he already pled guilty. As 18 U.S.C. § 982(b)(2) makes
clear, a defendant can only avoid this outcome if he “acted merely as an
intermediary.” Mr. Waked was more than an intermediary here. See supra at 12 &
n.2.
Finally, Mr. Waked argues criminal forfeiture can only be ordered against
“tainted property,” and that there is no tainted property here because the laundered
funds were returned to the Bank with interest. This argument derives from the

16

App. 16

Case: 18-11951

Date Filed: 08/11/2020

Page: 17 of 34

ruling in Honeycutt that forfeitable property under 21 U.S.C. § 853(a) is limited to
“tainted property obtained as the result of or used to facilitate the crime.” 137
S. Ct. at 1633. However, this aspect of the Honeycutt holding was based on the
language of § 853(a), which limits forfeiture to “proceeds the person obtained
directly or indirectly” as the result of the crime. By contrast, the government is
seeking forfeiture against Mr. Waked under 18 U.S.C. § 982(a)(1). And because
§ 982(a)(1) contains neither a “proceeds” nor an “obtained” limitation, Honeycutt’s
“tainted property” requirement does not apply to this case. See United States v.
Chittenden, 896 F.3d 633, 637 (4th Cir. 2018) (recognizing that Honeycutt’s
restriction of forfeiture to “tainted property the defendant personally acquired” is
limited to § 853(a) and other laws with identical language). 4
C. AVAILABILITY OF SUBSTITUTE FORFEITURE
The government also argues a forfeiture money judgment is available
because 21 U.S.C. § 853(p) permits substitute forfeiture where, as here, a

4

We also note that the District Court was mistaken when it construed Mr. Waked’s plea
agreement as precluding forfeiture. The District Court said at the Rule 35(a) hearing that the
plea agreement’s reference to “property . . . not otherwise recovered” as the basis for the
forfeiture amount precluded forfeiture since the laundered money was returned to the Bank. This
phrase does not preclude forfeiture. The plea agreement’s use of the word “recovered” in the
forfeiture context clearly refers to property not already recovered for forfeiture by the United
States, rather than the Bank. See, e.g., Caplin & Drysdale, Chartered v. United States, 491 U.S.
617, 631, 109 S. Ct. 2646, 2655 (1989) (noting the “strong governmental interest in obtaining
full recovery of all forfeitable assets”).

17

App. 17

Case: 18-11951

Date Filed: 08/11/2020

Page: 18 of 34

defendant does not retain laundered funds.5 Br. of Appellant at 32; Reply Br. at
16. Section 853(p) provides for forfeiture in the amount of “the property involved
in or traceable to the crime” if that property “is not available for forfeiture.”
United States v. Soreide, 461 F.3d 1351, 1352 n.1 (11th Cir. 2006) (per curiam);
see also United States v. Bermudez, 413 F.3d 304, 306 (2d Cir. 2005) (per curiam)
(holding that substitute forfeiture for cases arising under § 982(a)(1) may be
ordered in the amount of the laundering corpus). Although there are five general
circumstances in which § 853(p) applies, the government argues only one is
relevant here: that the forfeitable property has, “as a result of any act or omission
of the defendant . . . [,] been transferred or sold to, or deposited with, a third
party.” 21 U.S.C. § 853(p)(1)(B).
Mr. Waked argues substitute forfeiture is unavailable—and thus that the
district court should be affirmed—because the Bank is not a third party within the
meaning of § 853(p)(1)(B). According to Mr. Waked, this is so because the Bank
was the original and still-current owner of the laundered money, as opposed to a
mere “third party” to whom the money was transferred. But Mr. Waked provides

5

Mr. Waked says “the Government made no . . . motion or showing in the trial court”
that the substantive conditions for substitute forfeiture are present, so it should not be allowed to
make this argument on appeal. Br. of Appellee at 16. The record simply does not bear this out.
The government repeatedly argued before the District Court that substitute forfeiture applies
here. By that same token, Mr. Waked argued before the District Court—as he does on appeal—
that the government’s inability to satisfy the requirements of 21 U.S.C. § 853(p) precludes the
court from entering an order of forfeiture.

18

App. 18

Case: 18-11951

Date Filed: 08/11/2020

Page: 19 of 34

no support for his conclusory statement that victims of money laundering cannot
also be third parties under § 853(p). Neither can we find any support for this idea
in the text of the statute. Section 853(p)(1)(B) distinguishes between only “the
defendant” and “a third party” to whom property was transferred. We see no
reason why a victim of money laundering could not also have received a transfer of
the property. See United States v. Fabian, 764 F.3d 636, 637 (6th Cir. 2014) (“One
of those third parties was Jerry Mais, a victim of the fraud . . . .”). Our reading is
confirmed by other provisions of the law, such as § 853(c)’s use of the term “third
party” to refer to “a person other than the defendant.” Again, there is no obvious
reason why this term could not include a victim of the defendant’s conduct.
We decline to affirm the District Court on the ground that substitute asset
forfeiture is improper.
*

*

*

The definition of property in 18 U.S.C. § 982(a)(1) is distinct from that in
the other subsections of § 982(a), as well as 21 U.S.C. § 853(a). Our ruling allows
forfeiture in the amount of property that Mr. Waked transferred as a part of his
laundering scheme. We understand this outcome to be what Congress intended
when it used the broad term “any property, real or personal, involved in such
offense” and instituted a scheme of substitute forfeiture. We therefore conclude

19

App. 19

Case: 18-11951

Date Filed: 08/11/2020

Page: 20 of 34

that the District Court was under an obligation to order forfeiture against Mr.
Waked and we reverse its order to the contrary.
IV.
The Eighth Amendment prohibits the imposition of “excessive fines.” U.S.
Const. amend. VIII. A forfeiture payment is a “fine” within the meaning of the
Eighth Amendment if it “constitute[s] punishment for an offense.” Bajakajian, 524
U.S. at 328, 118 S. Ct. at 2033. A criminal forfeiture money judgment is intended
to punish. See id. “[A] punitive forfeiture violates the Excessive Fines Clause if it
is grossly disproportional to the gravity of a defendant’s offense.” Id. at 334, 118
S. Ct. at 2036. In this Circuit, consideration of whether a punitive forfeiture
violates the Eighth Amendment is governed by three main factors: “(1) whether the
defendant falls into the class of persons at whom the criminal statute was
principally directed; (2) other penalties authorized by the legislature (or the
Sentencing Commission); and (3) the harm caused by the defendant.” United
States v. Sperrazza, 804 F.3d 1113, 1127–28 (11th Cir. 2015) (quotation marks
omitted).
The District Court, applying these Eighth Amendment precepts, held that a
forfeiture order of $20,852,000 6 would be excessively punitive because “little harm
6

The government now clarifies it is seeking a forfeiture judgment in the lesser amount of
“$10,426,000, representing the total amount of funds actually used in the transactions.” Reply
Br. at 25 n.9.

20

App. 20

Case: 18-11951

Date Filed: 08/11/2020

Page: 21 of 34

was caused by the Defendant.” For this reason, the court held that, “even if it were
required to impose [forfeiture], a forfeiture money judgment of $520,000 would be
appropriate ($10,000 for each of the 52 transactions in this case).” The
government argues on appeal that forfeiture of $10,426,000—the amount of money
the Bank allowed Mr. Waked to transfer, rather than the amount both transferred
and redeposited—is not constitutionally excessive.
Reviewing the District Court’s legal analysis de novo, we conclude the court
erred in its holding that a fine of $10,000 per transaction is the constitutional
ceiling for an order of forfeiture against Mr. Waked. The District Court went
astray by considering only one of the enumerated factors—harm caused by the
defendant—in performing the excessiveness analysis. In addition, the District
Court’s application of that factor was erroneous because the court failed to
properly define the harm. For these reasons, we vacate the District Court’s holding
that any forfeiture order above $520,000 would be unconstitutionally excessive.
A. CLASS OF PERSONS
First, Mr. Waked is within the class of persons whom the money laundering
statutes were meant to cover. He was not merely an intermediary. He was a
sophisticated party who carried out a multi-million-dollar money laundering
scheme over the course of several years. See 18 U.S.C. § 1957(a); see also
Sperrazza, 804 F.3d at 1127 (holding that defendant’s unlawful tax evasion “places

21

App. 21

Case: 18-11951

Date Filed: 08/11/2020

Page: 22 of 34

him ‘at the dead center’ of the class of persons” at whom the statute criminalizing
such conduct is directed). Mr. Waked’s role necessitates an order of forfeiture to
be instituted against him, presuming such an order complies with the other
constitutional requirements.
B. AUTHORIZED PENALTIES
The second factor requires the court to consider whether “the order of
forfeiture is excessive in relation to the penalties authorized by the Congress and
the Sentencing Commission.” Sperrazza, 804 F.3d at 1127. If the value of the
forfeited property is within the permissible range of fines under the relevant statute
or sentencing guideline, the forfeiture is presumptively constitutional. See id. The
maximum fine for criminal money laundering is “twice the amount of the
criminally derived property involved in the transaction.” 18 U.S.C. § 1957(b)(2).
And the statute defines “criminally derived property” as “any property constituting,
or derived from, proceeds obtained from a criminal offense.” Id. § 1957(f)(2).
Mr. Waked argues the government conceded before the District Court that
“there are no proceeds of the offense” and so this penalty provision does not apply
to him. This argument misunderstands the word “proceeds,” which has a different
meaning in § 1957 than in substantive forfeiture provisions. In the context of
§ 1957, the word “proceeds” generally refers to the total revenue—“receipts as
well as profits”—of the underlying criminal offense. United States v. Jennings,

22

App. 22

Case: 18-11951

Date Filed: 08/11/2020

Page: 23 of 34

599 F.3d 1241, 1252 (11th Cir. 2010) (quotation marks omitted). Here, Mr.
Waked defrauded the Bank by causing it to pay on Vida Panama’s line of credit
and allowing him to transfer money to Star Textile and Global World. These are
the “proceeds” to which § 1957(f)(2) refers. See Oral Arg. Recording (Feb. 11,
2020) at 1:38–1:46 (“[T]here were proceeds from . . . the specified unlawful
activity[,] the preceding bank fraud on the Panamanian bank . . . .”); see also
United States v. Kratt, 579 F.3d 558, 560 (6th Cir. 2009) (defining “receipts . . .
received from the fraudulently obtained loans” as including the full “amount of the
loans”).
Mr. Waked does not point to anything other than the government’s supposed
concession at the forfeiture hearing in support of his argument that § 1957(b)(2)
should not be used to determine the maximum fine. As we read the record, the
government did not waive the right to argue that there were bank fraud proceeds.
And since the money Mr. Waked fraudulently obtained are proceeds within the
meaning of § 1957(f)(2), the maximum fine for his money laundering offense is
twice the amount of money “involved in” the laundering scheme. While this figure
appears to be $20,852,000,7 the District Court has not made the findings of fact

7

The Probation Department listed this amount as the maximum fine in the PSR and Mr.
Waked did not object. Assuming this figure—or something close to it—is correct, United States
Sentencing Guidelines § 5E1.2(c)(2), which limits the maximum fine based on the defendant’s
guideline offense level, would not apply because Mr. Waked was “convicted under a statute
authorizing [] a maximum fine greater than $500,000.” U.S.S.G. § 5E1.2(c)(4).

23

App. 23

Case: 18-11951

Date Filed: 08/11/2020

Page: 24 of 34

necessary to arrive at the proper forfeiture amount.8 Once it does, any forfeiture
amount below the maximum fine will be presumptively constitutional.
C. HARM CAUSED BY THE DEFENDANT
Finally, the court must take account of the harm caused by the defendant.
The District Court found that Mr. Waked’s conduct caused little harm because “all
of the funds were returned to the bank with interest.” But for some crimes,
including money laundering, the harm “does not generally fall upon an individual,
but falls upon society in general.” United States v. Martin, 320 F.3d 1223, 1227
(11th Cir. 2003) (per curiam) (quoting United States v. Thompson, 40 F.3d 48, 51
(3d Cir. 1994)). The District Court erred by failing to look beyond the impact on
the Bank’s bottom line when considering whether Mr. Waked’s conduct was
harmful.
To the extent the District Court’s order implicitly considered the harm Mr.
Waked caused to society, it erred in comparing his case to Bajakajian and United
States v. Ramirez, 421 F. App’x 950 (11th Cir. 2011) (per curiam) (unpublished).9

8

Our dissenting colleague argues we should defer any discussion of the excessiveness of
the forfeiture amount until after the District Court has made the appropriate findings. Post at 33–
34 & n.2. This we cannot do. In its order denying forfeiture, the District Court held that, “were
[it] required to impose a forfeiture money judgment,” only “a forfeiture money judgment of
$520,000 would be appropriate.” R. Doc. 375 at 2 n.1. We already held that the District Court is
required to impose a forfeiture money judgment, supra at 19–20, so it follows that we must reach
the court’s alternative holding that any forfeiture amount over $520,000 would be excessive.
9

In addition to being substantively distinguishable, we note that Ramirez, an unpublished
opinion, is not binding precedent in this Circuit. See 11th Cir. R. 36-2.

24

App. 24

Case: 18-11951

Date Filed: 08/11/2020

Page: 25 of 34

In Ramirez, a panel of our Court characterized the defendant as having committed
a mere “reporting offense.” 421 F. App’x at 952. We noted the defendant’s
conduct was not part of an “attempt to conceal his wrongdoing” and that the
money involved in the transactions “was not connected to any illegal activity.” Id.
Similar facts led the Supreme Court in Bajakajian to conclude that forfeiture of
$357,144, the amount of money the defendant failed to declare to customs
inspectors, would be unconstitutionally excessive. See Bajakajian, 524 U.S. at
337–39, 118 S. Ct. at 2038–39. By contrast, the greater harm from money
laundering is usually obvious: criminals launder money to cover up their criminal
conduct, and society suffers “when criminally derived funds are laundered to allow
the criminal unfettered, unashamed and camouflaged access to the fruits of those
ill-gotten gains.” United States v. O’Kane, 155 F.3d 969, 972–73 (8th Cir. 1998).
So, in Martin, this Court approved of the district court’s calculation of the “harm”
as equaling the amount the defendant laundered through the 97 different monetary
transactions for which he was convicted. 320 F.3d at 1226–27. Our Court said
that calculating the harm simply based on the value of the stolen check that gave
rise to these transactions would not take full stock of the harm to society. Id. at
1227. In such a case, society has an interest in redressing “the injection of illegal
proceeds into the stream of commerce.” Id. (quotation marks omitted). Similarly,
when a laundering scheme covers up the movement of drug money, the conduct “is

25

App. 25

Case: 18-11951

Date Filed: 08/11/2020

Page: 26 of 34

harmful in and of itself.” United States v. Chaplin’s, Inc., 646 F.3d 846, 853 (11th
Cir. 2011).
On remand, the District Court will have an opportunity to make detailed
findings regarding the quantum of harm caused by Mr. Waked. When it does, it
must consider the adverse impact on society that money laundering generally has
as well as the specific conduct that Mr. Waked engaged in. Only after making
those findings will the court be able to determine the constitutional contours of the
forfeiture judgment against Mr. Waked.
V.
Although we reverse the District Court’s denial of the government’s motion
for forfeiture, we do not set the amount of the forfeiture required. The District
Court has not conducted any factfinding to that effect, nor has it had the
opportunity to conduct a proper constitutional analysis. The District Court must be
given an opportunity to do so in the first instance.
REVERSED IN PART, VACATED IN PART, AND REMANDED.

26

App. 26

Case: 18-11951

Date Filed: 08/11/2020

Page: 27 of 34

LAGOA, Circuit Judge, concurring in part and dissenting in part:
Because the statutory language in 18 U.S.C. § 982(a)(1) and 28 U.S.C. §
2461(c) is mandatory, leaving no discretion to the district court, I concur with the
majority opinion that the district court must enter a forfeiture money judgment
against Mr. Waked and that such judgment must reflect the total money laundered
through Mr. Waked’s conspiracy. See, e.g., United States v. Hernandez, 803 F.3d
1341, 1343 (11th Cir. 2015) (discussing the mandatory nature of 28 U.S.C. §
2461(c)); United States v. Fleet, 498 F.3d 1225, 1229 (11th Cir. 2007) (interpreting
“shall order” language in 21 U.S.C. § 853(p)). Furthermore, the text of § 982(a)(1)
and our precedent leave no question that the amount subject to forfeiture in this case
includes the amount laundered by Mr. Waked, even if he paid those funds back to
the bank. See 18 U.S.C. § 982(a)(1) (requiring forfeiture of “any property . . .
involved in such offense”); United States v. Seher, 562 F.3d 1344, 1368 (11th Cir.
2009); see also United States v. Bermudez, 413 F.3d 304, 306 (2d Cir. 2005) (finding
that § 982(a)(1), read in conjunction with § 982(b)(2), allows for forfeiture of assets
“up to the amount laundered . . . even if he never retained those funds”).
I respectfully disagree, however, with the majority’s discussion in Parts III(C)
and IV of the opinion. The government has not yet sought substitute asset forfeiture.
Similarly, the district court has not yet made the factual findings for it to conclude
whether or not the forfeiture amount is excessive under the Eighth Amendment.

27

App. 27

Case: 18-11951

Date Filed: 08/11/2020

Page: 28 of 34

Because it is premature for this Court to reach either of those issues on this appeal,
I respectfully dissent from those portions of the majority opinion.
I.

Substitute Asset Forfeiture Pursuant to 21 U.S.C. § 853(p)
The government has three, nonexclusive avenues for forfeiture relief against

Mr. Waked. See generally United States v. Candelaria–Silva, 166 F.3d 19, 42 (1st
Cir. 1999) (discussing three types of forfeiture relief against a criminal defendant).
First, the government may seek an in personam forfeiture money judgment against
the defendant. United States v. Elbeblawy, 899 F.3d 925, 940–41 (11th Cir. 2018)
(upholding district court’s authority to enter forfeiture money judgments). Second,
the government may seek direct forfeiture of specific property made forfeitable by
statute. See 18 U.S.C. § 982(a)(1), (b)(1); 21 U.S.C. § 853(a). Third, in the absence
of directly forfeitable property, the government may seek forfeiture of other property
belonging to the defendant—that is, substitute property—by meeting the
requirements of 21 U.S.C. § 853(p). See 18 U.S.C. § 982(b)(1).
These three separate forms of forfeiture relief are reflected in the Rules of
Criminal Procedure. A preliminary order of forfeiture must include the amount of
any money judgment, direct the forfeiture of specific property, and, “if the
government has met the statutory criteria,” direct forfeiture of any substitute
property. Fed. R. Crim. P. 32.2(b)(2)(A) (emphasis added). If the government
subsequently identifies substitute property subject to forfeiture under applicable

28

App. 28

Case: 18-11951

Date Filed: 08/11/2020

Page: 29 of 34

statutes, it may move for a new or amended order of forfeiture. Fed. R. Crim. P.
32.2(e). Put simply, substitute asset forfeiture and forfeiture money judgments are
separate forfeiture remedies.

The latter is not dependent on the existence of

forfeitable substitute property or the government’s entitlement under § 853(p). See
United States v. Lo, 839 F.3d 777, 792 (9th Cir. 2016) (“[W]here the government
does not seek substitute property under Rule 32.2(e), but seeks only ‘a money
judgment as a form of criminal forfeiture under Rule 32.2(b),’ those requirements
[of § 853(p)] are inapplicable.”).
Here, the government sought a forfeiture money judgment against Mr. Waked.
It did not request relief under § 853(p)—the substitute asset forfeiture provision—in
its initial and subsequent motions and memoranda nor did it identify specific
substitute property to be forfeited. Specifically, the government stated that
“[b]ecause the United States has not, as of this date, identified specific property to
forfeit, it seeks a money judgment in” the total amount laundered by Mr. Waked.
The government mentioned the statutes governing substitute asset forfeiture only in
later briefing, and did so only to support its argument that the district court could
(and must) enter a forfeiture money judgment even though Mr. Waked returned all
laundered funds to the bank. Specifically, the government argued that “[t]he
exemption in Section 982(b)(2) on forfeiting substitute assets would make no sense
if Section 982(a)(1) limited forfeiture only to the amount of funds that a defendant

29

App. 29

Case: 18-11951

Date Filed: 08/11/2020

Page: 30 of 34

had retained for himself.” Moreover, in those filings, the government reiterated that
it was seeking entry of an in personam forfeiture money judgment against Mr.
Waked.

Similarly, at the hearing on the government’s forfeiture motion, the

government pointed to the substitute asset forfeiture provisions to address the district
court’s main concern that it may be improper to order forfeiture of property that is
no longer with the defendant. Thus, throughout the proceedings before the district
court, the government maintained that it sought a forfeiture money judgment “in an
amount equal to the amount of money that was involved in the money laundering
offense.”
On appeal, the government does not take the position that it is entitled to a
forfeiture money judgment against Mr. Waked under §853(p) and § 982(b)(2) as a
form of substitute asset forfeiture. Rather, the government acknowledges that the
money judgment is a means for the government to memorialize Mr. Waked’s
forfeiture obligations so that it can later target substitute assets to satisfy that
judgment. As it did below, the government discusses § 853(p) and § 982(b)(2) only
to demonstrate that Congress, by incorporating substitute asset relief and providing
a safe harbor for low-level laundering intermediaries, expressed an intent to hold
large-scale money launderers liable for the total amount laundered, even if they do
not retain the laundered proceeds. The government further clarifies its position by
noting that a money judgment is necessary because it would “allow[] the government

30

App. 30

Case: 18-11951

Date Filed: 08/11/2020

Page: 31 of 34

to enforce that judgment by attempting to locate substitute property belonging to
Waked up to the value of that money judgment.”
The majority opinion, however, suggests that substitute asset forfeiture is
available to the government and rejects Mr. Waked’s argument that the bank is not
a third-party transferee for purposes of § 853(p)(1)(B). The majority’s conclusion
appears to stem from the notion that the government based its entitlement to
forfeiture, at least in part, on the substitute asset forfeiture provisions. As discussed
above, the record is clear that the government moved for only a money judgment.
More importantly, such a conclusion would blend two separate forfeiture remedies,
and relieve the government from complying with the requirements of § 853(p) while
depriving Mr. Waked of the opportunity to contest them.
I agree that the government is entitled to a forfeiture money judgment in the
amount of the money laundered by Mr. Waked, see 18 U.S.C. § 982(a)(1), and that
nothing in § 853(p) affects the district court’s obligation to enter the requested
money judgment. But any additional questions relating to entitlement to substitute
asset forfeiture are not before this Court. Once the district court enters the requested
money judgment, the government may seek forfeiture against substitute property
owned by Mr. Waked, if any. If it chooses to proceed against such substitute
property, the government would have to move under Rule 32.2 and meet the relevant
statutory requirements by a preponderance of the evidence. See United States v.

31

App. 31

Case: 18-11951

Date Filed: 08/11/2020

Page: 32 of 34

Hasson, 333 F.3d 1264, 1278–79 (11th Cir. 2003). This has not happened yet, and
I therefore would not address any issues relating to that process in this appeal.
II.

The Eighth Amendment Analysis
In a footnote, the district court stated that the forfeiture amount requested by

the government was constitutionally excessive under the Eighth Amendment
because Mr. Waked’s criminal activity caused little harm. The district court noted
that, “if it were required to impose one, a forfeiture money judgment of $520,000
would be appropriate ($10,000 for each of the 52 transactions in this case).” In
response, the majority applies this Court’s excessive fine test in United States v.
Sperrazza, 804 F.3d 1113 (11th Cir. 2015), and concludes that the district court erred
in finding that any forfeiture money judgment beyond $520,000 would be
unconstitutional under the Eighth Amendment.1

1

The majority characterizes the district court’s footnote as an alternative holding.
However, the sole issue before the district court was whether entry of a forfeiture money judgement
was mandatory. Nowhere in its footnote does the district court contend that the Eighth Amendment
precludes entry of a forfeiture money judgment against Mr. Waked. Instead, the district court’s
brief Eighth Amendment discussion begins with “[e]ven if the Court were required to impose a
forfeiture money judgment” and concludes with what amount “would be appropriate.” This
statement is dictum, not a holding. See Edwards v. Prime, Inc., 602 F.3d 1276, 1289 (11th Cir.
2010) (“All statements that go beyond the facts of the case—and sometimes, but not always, they
begin with the word ‘if’—are dicta.”); see also In re BFW Liquidation, 899 F.3d 1178, 1186 (11th
Cir. 2018) (noting that a statement constitutes dictum, not a holding, if it is unnecessary to the
results of the case). The only holding by the district court pertains to the entry of a forfeiture
money judgment against Mr. Waked. Until the district court enters a money judgment against Mr.
Waked and decides whether to limit the amount based on the Eighth Amendment, there is no
holding on that issue for us to review.

32

App. 32

Case: 18-11951

Date Filed: 08/11/2020

Page: 33 of 34

Sperrazza requires us to consider “(1) whether the defendant falls into the
class of persons at whom the criminal statute was principally directed; (2) other
penalties authorized by the legislature (or the Sentencing Commission); and (3) the
harm caused by the defendant.” Id. at 1127 (quoting United States v. Browne, 505
F.3d 1229, 1281 (11th Cir. 2007)). The second prong of that inquiry, which could
afford a forfeiture order a strong presumption of constitutionality, see United States
v. Dicter, 198 F.3d 1284, 1292 (11th Cir. 1999), requires a specific factual finding
in this case.2 The maximum fine available against Mr. Waked depends on the total
“amount of the criminally derived property involved in” Mr. Waked’s offenses. 18
U.S.C. § 1957(b)(2); accord U.S.S.G. § 5E1.2(c).
This Court recognizes that the district court is the best forum to decide and
weigh the various fact-based considerations that drive the excessive fine analysis.
See, e.g., Seher, 562 F.3d at 1371 (remanding Eighth Amendment issue to the district
court for factual findings because this Court did not have a clear factual basis for
evaluating whether forfeiture of certain assets would constitute an excessive fine);
United States v. Land, Winston County, 163 F.3d 1295, 1303 (11th Cir. 1998)
(remanding Eighth Amendment issue to the district court “[b]ecause the issue of

2

As well, the third prong, i.e., the harm caused by Mr. Waked’s conduct, also requires
specific factual findings that should be better developed in the district court before reaching this
Court. See, e.g., Sperrazza, 804 F.3d at 1128 (considering evidence regarding the purpose of, and
indirect harm caused by, the defendant’s criminal conduct).
33

App. 33

Case: 18-11951

Date Filed: 08/11/2020

Page: 34 of 34

excessive fines may depend on various factors and conduct with which the district
court is more familiar than this court”). This allocation of fact-finding reflects this
Court’s limited role in reviewing forfeiture orders for constitutional excessiveness:
“rather than strict proportionality, we review fines only for gross disproportionality.”
United States v. Chaplin’s, Inc., 646 F.3d 846, 851 (11th Cir. 2011).
As the majority acknowledges, the district court has not made findings of fact
as to the total amount laundered by Mr. Waked. And it follows that the district court
has not made the factual findings required by Sperrazza based on that total amount.
Thus, absent clear determinations from the district court, I believe that the proper
procedure is to remand to the district court to provide it the opportunity to make the
findings relevant to the excessive fine analysis and for this Court to defer its
discussion until it is presented with those findings. Otherwise, by deciding a legal
issue based on as-yet-not-made factual determinations, this Court risks issuing an
advisory opinion “that merely opine[s] on ‘what the law would be upon a
hypothetical state of facts.’” Gagliardi v. TJCV Land Trust, 889 F.3d 728, 733 (11th
Cir. 2018) (quoting Chafin v. Chafin, 568 U.S. 165, 172 (2013)).
For the foregoing reasons, I concur in reversing the order denying a forfeiture
money judgment to the government, but I would defer discussion on substitute asset
forfeiture and the Eighth Amendment until those issues properly reach this Court.

34

App. 34

USCA11 Case: 18-11951

Date Filed: 10/29/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

October 29, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-11951-GG
Case Style: USA v. Nidal Hatum
District Court Docket No: 1:15-cr-20189-RNS-1
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Joseph Caruso, GG/lt
Phone #: (404) 335-6177
REHG-1 Ltr Order Petition Rehearing

App. 35

USCA11 Case: 18-11951

Date Filed: 10/29/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-11951-GG
________________________
UNITED STATES OF AMERICA,
Plaintiff - Appellant,
versus
NIDAL AHMED WAKED HATUM,
Defendant - Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: MARTIN, GRANT, and LAGOA, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

App. 36

Case 1:15-cr-20189-RNS Document 375 Entered on FLSD Docket 04/10/2018 Page 1 of 2

United States District Court
for the
Southern District of Florida
United States of America,
Plaintiff
v.
Nidal Waked Hatum,
Defendant.

)
)
) Criminal Case No. 15-20189-CR-Scola
)
)

Order on Government’s Request for Entry of Forfeiture Money Judgment
The Court held a hearing on April 6, 2018 to determine whether a
forfeiture money judgment should be entered against the Defendant and, if so, to
determine the appropriate amount of the forfeiture money judgment. The
Government filed its forfeiture memorandum [ECF No. 367], the Defendant filed
his response [ECF No. 372] and the Government replied [ECF No. 373]. After
considering the arguments of the parties and relevant legal authorities, and
based upon the unique facts of this case, the Court finds the Government is not
entitled to the entry of a forfeiture money judgment.
At the outset, the Court acknowledges that forfeiture is a mandatory part
of a defendant’s sentence under 18 U.S.C. § 982(a)(1) and 28 U.S.C. § 2461 and
that it has the authority to enter a forfeiture money judgment pursuant to Fed.
R. Crim. P. 32.2(b)(1) and (c)(1) and United States v. Honeycutt, 137 S.Ct. 1626
(2017) and United States v. Padron, 527 F.3d 1156, 1162 (11th Cir. 2008).
The forfeiture statute in this case, 18 U.S.C. § 982(a)(1), states:
The Court, in imposing sentence on a person convicted
of an offense in violation of section 1956, 1957, or 1960
of this title, shall order that the person forfeit to the
United States any property, real or personal, involved
in such offense, of any property traceable to such
property. (Emphases added)
18 U.S.C. § 982(b)(2) expressly authorizes the forfeiture of all of the money
laundered by the defendant, even if he retained none of it for himself, so long as
he conducted three or more separate transactions involving a total of $100,000
in a 12 month period.
So, why then, is the Court not imposing a forfeiture money judgment? The
purpose of forfeiture is to ensure that criminals do not retain money for
themselves and to punish defendants by transferring ill-gotten gains to the
United States. See United States v. Browne, 505 F.3d 1229, 1280-81 (11th Cir.
2007); United States v. Paley, 442 F.3d 1273, 1278 (11th Cir. 2006). In this case,
all of the funds that were laundered were returned to the bank, with interest.

App. 37

Case 1:15-cr-20189-RNS Document 375 Entered on FLSD Docket 04/10/2018 Page 2 of 2

There are no laundered funds that were retained by the Defendant or any other
co-conspirator to be forfeited.
Accordingly, it is hereby ordered that no forfeiture money judgment shall
be entered and the Court vacates the Preliminary Order of Forfeiture [ECF No.
354] entered on December 18, 2017.1
Done and ordered at Miami, Florida, on April 9, 2018.

__________________________
Robert N. Scola, Jr.
United States District Judge

1 Even if the Court were required to impose a forfeiture money judgment, the

amount requested by the Government, $20,852,000, is excessive. See United
States v. Bajakajian, 524 U.S. 321, 337 (1998); United States v. Ramirez, 421
Fed. Appx. 950, 952 (11th Cir. 2011). Since all of the funds were returned to the
bank with interest, little harm was caused by the Defendant. Using the reasoning
and methodology of Ramirez, the Court finds that even if it were required to
impose one, a forfeiture money judgment of $520,000 would be appropriate
($10,000 for each of the 52 transactions in this case).

App. 38

Case 1:15-cr-20189-RNS Document 343 Entered on FLSD Docket 10/19/2017 Page 1 of 3

U N ITE D STA TES D ISTR ICT C O U R T
SO U TH ER N DISTR ICT O F FLO R IDA
C A SE N O .15-20189-C R-SC O LA
/

UN ITED STA TES O FA M ER ICA
V.

NID AL W A K ED H A TU M ,
Defendant.

/
FA CTU A L PR O FFER

The United StatesofA m erica and the defendant,N idalW aked H atum ,hereby agree that
if this case had proceeded to trial,the U nited States w ould have presented evidence sufficientto
establish the follow ing facts,which provide the factualbasis forthe defendant's plea of guilty to
Count 1 ofthe Indictm ent:
D uring the tim e period of approxim ately 2000 through Febnzary 2009, the
defendantw asthe generalm anagerofV ida Panam a,Z.L.,S.A .,a Panam anian-based corporation,

and w as the owner of two M iam i-based corporations, Star Textile M anufacturing and Global
W orld Im port & Export. He had signature authority on the balzk accounts of a1l three
corporations.
The defendant during that tim e period entered into an agreem ent with others to

engage in m onetary transactions involving issuance ofw ire transfers and checks thatresulted in
transfers of ftm ds between a bank in Panam a and a bank in M iam i,in the Southern Districtof
Florida,w hich w as insured by the FederalD epositlnsurance Corporation.

3.

Thevalueofthosefundsexceeded$10,000,andthefundswerederived from fraud

on a bank in Panam a in w hich Vida Panam a m aintained an account.
4.

M ore specifically,on m ultiple occasions,thedefendantissued w ire transfersdrawn

App. 39

--

Case 1:15-cr-20189-RNS Document 343 Entered on FLSD Docket 10/19/2017 Page 2 of 3

onVidaPanama'screditlineattheInternationalCommercialBank ofChina(ICBC)inPanama,
which were sentto the accountsof StarTextile and GlobalW orld atO cean Bank in M iam i. The

amountsofthese wire transfersranged from approximately $22,000 to $550,000. A1lofthese
wire transfers w ere from loans drawn on a line ofcreditthe defendanthad available from ICBC .
In order to support the draw s on Vida Panam a's line of credit,ICBC required

justificationtoshow thattheseinternationaltransfersoffundswereforpurchasesofgoodstothen
be sold by Vida Panam a.

ln orderto show thatthe internationalw ire transfers w ere forsuch business deals,
the defendantclaim ed thateach transferw as for the purchase ofgoods from G lobalorfrom Star.
He subm itted invoices to ICBC w ith each w ire transfer application that purported to show that
Vida Panam a had purchased a shipm ent of televisions or other sim ilar electronic equipm ent,or
appliances,from the com pany in M iam i,which w asto be paid for with the w ire transfer.
There w ere no such purchases of televisions,electronics,or appliances by V ida

Panam a from Staror Global,and the invoicesw ere allfalse. The defendantapplied forthe credit
draw sand w ire transfersknow ing thatthe supposed reasons forthem thathe had provided to the
bank w ere untrue.

8.

The defendant intentionally m isrepresented the nature and purpose of these

tinancialtransactions in order to induce ICBC to issue the loans and w ire transfers. H ad ICBC

known of the falsehoods in the applications,it w ould not have approved the draw s on V ida
panam a's line ofcreditorthe intem ationalw ire transfers.
On each occasion,w ithin approxim ately 24 hoursafterthew ire transferw ascleared
to the account of Star or G lobal, the defendant deposited one or m ore checks from that
corporation's accountinto the accountofV ida Panam a,in a totalam ountvirtually identicalto the
am ountofthe w iretransfer. The defendantarranged w ith hisco-conspiratorsto havethese checks

App. 40

Case 1:15-cr-20189-RNS Document 343 Entered on FLSD Docket 10/19/2017 Page 3 of 3

sentto him in advance ofhism aking the w ire transfers. ln m ostinstances,he signed the checks
him selfw hen he w asready to havethem deposited. This schem e resulted in the sam e ftm dsbeing
m oved from Panam a to M iam iand alm ostsim ultaneously from M iam iback to Panam a.
10.
from the b

N o bank incurred any tinanciallosses from these transactions and allthe draw s
w ere re-paid on tim e w ith interest.

#*

NlD
W AK ED H AT UM
D EFEN D AN T
z

FR AN K H .TA
N
A SSISTAN T U .S.A TT RN
,e

N O R M AN A .M O SCO W ITZ
D EFEN SE COU N SEL

W A LTER N O RK IN
A SSISTAN T U .S.A TTORN EY

S

DA TE

*
r .e

*.>.

'.

.

L J.

BlN

.f% & /7

Y EFEN SE COUNSEL

HowAu SREBNICK

/>//#ZeP'

D EFEN SE COU N SEL

3

App. 41

§ 981. Civil forfeiture, 18 USCA § 981

United States Code Annotated
Title 18. Crimes and Criminal Procedure (Refs & Annos)
Part I. Crimes (Refs & Annos)
Chapter 46. Forfeiture (Refs & Annos)
18 U.S.C.A. § 981
§ 981. Civil forfeiture
Effective: February 18, 2016
Currentness

(a)(1) The following property is subject to forfeiture to the United States:
(A) Any property, real or personal, involved in a transaction or attempted transaction
in violation of section 1956, 1957 or 1960 of this title, or any property traceable to
such property.
(B) Any property, real or personal, within the jurisdiction of the United States,
constituting, derived from, or traceable to, any proceeds obtained directly or indirectly
from an offense against a foreign nation, or any property used to facilitate such an
offense, if the offense-(i) involves trafficking in nuclear, chemical, biological, or radiological weapons
technology or material, or the manufacture, importation, sale, or distribution of a
controlled substance (as that term is defined for purposes of the Controlled
Substances Act), or any other conduct described in section 1956(c)(7)(B);
(ii) would be punishable within the jurisdiction of the foreign nation by death or
imprisonment for a term exceeding 1 year; and
(iii) would be punishable under the laws of the United States by imprisonment for a
term exceeding 1 year, if the act or activity constituting the offense had occurred
within the jurisdiction of the United States.
(C) Any property, real or personal, which constitutes or is derived from proceeds
traceable to a violation of section 215, 471, 472, 473, 474, 476, 477, 478, 479, 480,
481, 485, 486, 487, 488, 501, 502, 510, 542, 545, 656, 657, 670, 842, 844, 1005, 1006,
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

App. 42

§ 981. Civil forfeiture, 18 USCA § 981

1007, 1014, 1028, 1029, 1030, 1032, or 1344 of this title or any offense constituting
“specified unlawful activity” (as defined in section 1956(c)(7) of this title), or a
conspiracy to commit such offense.
(D) Any property, real or personal, which represents or is traceable to the gross
receipts obtained, directly or indirectly, from a violation of-(i) section 666(a)(1) (relating to Federal program fraud);
(ii) section 1001 (relating to fraud and false statements);
(iii) section 1031 (relating to major fraud against the United States);
(iv) section 1032 (relating to concealment of assets from conservator or receiver of
insured financial institution);
(v) section 1341 (relating to mail fraud); or
(vi) section 1343 (relating to wire fraud),
if such violation relates to the sale of assets acquired or held by the the1 Federal
Deposit Insurance Corporation, as conservator or receiver for a financial institution,
or any other conservator for a financial institution appointed by the Office of the
Comptroller of the Currency or the National Credit Union Administration, as
conservator or liquidating agent for a financial institution.
(E) With respect to an offense listed in subsection (a)(1)(D) committed for the purpose
of executing or attempting to execute any scheme or artifice to defraud, or for
obtaining money or property by means of false or fraudulent statements, pretenses,
representations or promises, the gross receipts of such an offense shall include all
property, real or personal, tangible or intangible, which thereby is obtained, directly or
indirectly.
(F) Any property, real or personal, which represents or is traceable to the gross
proceeds obtained, directly or indirectly, from a violation of-(i) section 511 (altering or removing motor vehicle identification numbers);
(ii) section 553 (importing or exporting stolen motor vehicles);
(iii) section 2119 (armed robbery of automobiles);
(iv) section 2312 (transporting stolen motor vehicles in interstate commerce); or
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

App. 43

§ 981. Civil forfeiture, 18 USCA § 981

(v) section 2313 (possessing or selling a stolen motor vehicle that has moved in
interstate commerce).
(G) All assets, foreign or domestic-(i) of any individual, entity, or organization engaged in planning or perpetrating any
any1 Federal crime of terrorism (as defined in section 2332b(g)(5)) against the
United States, citizens or residents of the United States, or their property, and all
assets, foreign or domestic, affording any person a source of influence over any such
entity or organization;
(ii) acquired or maintained by any person with the intent and for the purpose of
supporting, planning, conducting, or concealing any Federal crime of terrorism (as
defined in section 2332b(g)(5)2 against the United States, citizens or residents of the
United States, or their property;
(iii) derived from, involved in, or used or intended to be used to commit any Federal
crime of terrorism (as defined in section 2332b(g)(5)) against the United States,
citizens or residents of the United States, or their property; or
(iv) of any individual, entity, or organization engaged in planning or perpetrating
any act of international terrorism (as defined in section 2331) against any
international organization (as defined in section 209 of the State Department Basic
Authorities Act of 1956 (22 U.S.C. 4309(b)) or against any foreign Government.3
Where the property sought for forfeiture is located beyond the territorial boundaries
of the United States, an act in furtherance of such planning or perpetration must
have occurred within the jurisdiction of the United States.
(H) Any property, real or personal, involved in a violation or attempted violation, or
which constitutes or is derived from proceeds traceable to a violation, of section 2339C
of this title.
(I) Any property, real or personal, that is involved in a violation or attempted violation,
or which constitutes or is derived from proceeds traceable to a prohibition imposed
pursuant to section 104(a) of the North Korea Sanctions and Policy Enhancement Act
of 2016.
(2) For purposes of paragraph (1), the term “proceeds” is defined as follows:
(A) In cases involving illegal goods, illegal services, unlawful activities, and
telemarketing and health care fraud schemes, the term “proceeds” means property of
any kind obtained directly or indirectly, as the result of the commission of the offense
giving rise to forfeiture, and any property traceable thereto, and is not limited to the net
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

App. 44

§ 981. Civil forfeiture, 18 USCA § 981

gain or profit realized from the offense.
(B) In cases involving lawful goods or lawful services that are sold or provided in an
illegal manner, the term “proceeds” means the amount of money acquired through the
illegal transactions resulting in the forfeiture, less the direct costs incurred in providing
the goods or services. The claimant shall have the burden of proof with respect to the
issue of direct costs. The direct costs shall not include any part of the overhead
expenses of the entity providing the goods or services, or any part of the income taxes
paid by the entity.
(C) In cases involving fraud in the process of obtaining a loan or extension of credit,
the court shall allow the claimant a deduction from the forfeiture to the extent that the
loan was repaid, or the debt was satisfied, without any financial loss to the victim.
(b)(1) Except as provided in section 985, any property subject to forfeiture to the United
States under subsection (a) may be seized by the Attorney General and, in the case of
property involved in a violation investigated by the Secretary of the Treasury or the
United States Postal Service, the property may also be seized by the Secretary of the
Treasury or the Postal Service, respectively.
(2) Seizures pursuant to this section shall be made pursuant to a warrant obtained in the
same manner as provided for a search warrant under the Federal Rules of Criminal
Procedure, except that a seizure may be made without a warrant if-(A) a complaint for forfeiture has been filed in the United States district court and the
court issued an arrest warrant in rem pursuant to the Supplemental Rules for Certain
Admiralty and Maritime Claims;
(B) there is probable cause to believe that the property is subject to forfeiture and-(i) the seizure is made pursuant to a lawful arrest or search; or
(ii) another exception to the Fourth Amendment warrant requirement would apply;
or
(C) the property was lawfully seized by a State or local law enforcement agency and
transferred to a Federal agency.
(3) Notwithstanding the provisions of rule 41(a) of the Federal Rules of Criminal
Procedure, a seizure warrant may be issued pursuant to this subsection by a judicial
officer in any district in which a forfeiture action against the property may be filed under
section 1355(b) of title 28, and may be executed in any district in which the property is
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

App. 45

§ 981. Civil forfeiture, 18 USCA § 981

found, or transmitted to the central authority of any foreign state for service in
accordance with any treaty or other international agreement. Any motion for the return of
property seized under this section shall be filed in the district court in which the seizure
warrant was issued or in the district court for the district in which the property was
seized.
(4)(A) If any person is arrested or charged in a foreign country in connection with an
offense that would give rise to the forfeiture of property in the United States under this
section or under the Controlled Substances Act, the Attorney General may apply to any
Federal judge or magistrate judge in the district in which the property is located for an ex
parte order restraining the property subject to forfeiture for not more than 30 days, except
that the time may be extended for good cause shown at a hearing conducted in the
manner provided in rule 43(e) of the Federal Rules of Civil Procedure.
(B) The application for the restraining order shall set forth the nature and circumstances
of the foreign charges and the basis for belief that the person arrested or charged has
property in the United States that would be subject to forfeiture, and shall contain a
statement that the restraining order is needed to preserve the availability of property for
such time as is necessary to receive evidence from the foreign country or elsewhere in
support of probable cause for the seizure of the property under this subsection.
(c) Property taken or detained under this section shall not be repleviable, but shall be
deemed to be in the custody of the Attorney General, the Secretary of the Treasury, or the
Postal Service, as the case may be, subject only to the orders and decrees of the court or
the official having jurisdiction thereof. Whenever property is seized under this
subsection, the Attorney General, the Secretary of the Treasury, or the Postal Service, as
the case may be, may-(1) place the property under seal;
(2) remove the property to a place designated by him; or
(3) require that the General Services Administration take custody of the property and
remove it, if practicable, to an appropriate location for disposition in accordance with
law.
(d) For purposes of this section, the provisions of the customs laws relating to the seizure,
summary and judicial forfeiture, condemnation of property for violation of the customs
laws, the disposition of such property or the proceeds from the sale of such property
under this section, the remission or mitigation of such forfeitures, and the compromise of
claims (19 U.S.C. 1602 et seq.), insofar as they are applicable and not inconsistent with
the provisions of this section, shall apply to seizures and forfeitures incurred, or alleged
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

App. 46

§ 981. Civil forfeiture, 18 USCA § 981

to have been incurred, under this section, except that such duties as are imposed upon the
customs officer or any other person with respect to the seizure and forfeiture of property
under the customs laws shall be performed with respect to seizures and forfeitures of
property under this section by such officers, agents, or other persons as may be
authorized or designated for that purpose by the Attorney General, the Secretary of the
Treasury, or the Postal Service, as the case may be. The Attorney General shall have sole
responsibility for disposing of petitions for remission or mitigation with respect to
property involved in a judicial forfeiture proceeding.
(e) Notwithstanding any other provision of the law, except section 3 of the Anti Drug
Abuse Act of 1986, the Attorney General, the Secretary of the Treasury, or the Postal
Service, as the case may be, is authorized to retain property forfeited pursuant to this
section, or to transfer such property on such terms and conditions as he may determine-(1) to any other Federal agency;
(2) to any State or local law enforcement agency which participated directly in any of
the acts which led to the seizure or forfeiture of the property;
(3) in the case of property referred to in subsection (a)(1)(C), to any Federal financial
institution regulatory agency-(A) to reimburse the agency for payments to claimants or creditors of the institution;
and
(B) to reimburse the insurance fund of the agency for losses suffered by the fund as
a result of the receivership or liquidation;
(4) in the case of property referred to in subsection (a)(1)(C), upon the order of the
appropriate Federal financial institution regulatory agency, to the financial institution
as restitution, with the value of the property so transferred to be set off against any
amount later recovered by the financial institution as compensatory damages in any
State or Federal proceeding;
(5) in the case of property referred to in subsection (a)(1)(C), to any Federal financial
institution regulatory agency, to the extent of the agency’s contribution of resources to,
or expenses involved in, the seizure and forfeiture, and the investigation leading
directly to the seizure and forfeiture, of such property;
(6) as restoration to any victim of the offense giving rise to the forfeiture, including, in
the case of a money laundering offense, any offense constituting the underlying
specified unlawful activity; or
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

App. 47

§ 981. Civil forfeiture, 18 USCA § 981

(7) In3 the case of property referred to in subsection (a)(1)(D), to the Resolution Trust
Corporation, the Federal Deposit Insurance Corporation, or any other Federal financial
institution regulatory agency (as defined in section 8(e)(7)(D) of the Federal Deposit
Insurance Act).
The Attorney General, the Secretary of the Treasury, or the Postal Service, as the case
may be, shall ensure the equitable transfer pursuant to paragraph (2) of any forfeited
property to the appropriate State or local law enforcement agency so as to reflect
generally the contribution of any such agency participating directly in any of the acts
which led to the seizure or forfeiture of such property. A decision by the Attorney
General, the Secretary of the Treasury, or the Postal Service pursuant to paragraph (2)
shall not be subject to review. The United States shall not be liable in any action arising
out of the use of any property the custody of which was transferred pursuant to this
section to any non-Federal agency. The Attorney General, the Secretary of the Treasury,
or the Postal Service may order the discontinuance of any forfeiture proceedings under
this section in favor of the institution of forfeiture proceedings by State or local
authorities under an appropriate State or local statute. After the filing of a complaint for
forfeiture under this section, the Attorney General may seek dismissal of the complaint in
favor of forfeiture proceedings under State or local law. Whenever forfeiture proceedings
are discontinued by the United States in favor of State or local proceedings, the United
States may transfer custody and possession of the seized property to the appropriate State
or local official immediately upon the initiation of the proper actions by such officials.
Whenever forfeiture proceedings are discontinued by the United States in favor of State
or local proceedings, notice shall be sent to all known interested parties advising them of
the discontinuance or dismissal. The United States shall not be liable in any action arising
out of the seizure, detention, and transfer of seized property to State or local officials. The
United States shall not be liable in any action arising out of a transfer under paragraph
(3), (4), or (5) of this subsection.
(f) All right, title, and interest in property described in subsection (a) of this section shall
vest in the United States upon commission of the act giving rise to forfeiture under this
section.
(g)(1) Upon the motion of the United States, the court shall stay the civil forfeiture
proceeding if the court determines that civil discovery will adversely affect the ability of
the Government to conduct a related criminal investigation or the prosecution of a related
criminal case.
(2) Upon the motion of a claimant, the court shall stay the civil forfeiture proceeding with
respect to that claimant if the court determines that-© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

App. 48

§ 981. Civil forfeiture, 18 USCA § 981

(A) the claimant is the subject of a related criminal investigation or case;
(B) the claimant has standing to assert a claim in the civil forfeiture proceeding; and
(C) continuation of the forfeiture proceeding will burden the right of the claimant
against self-incrimination in the related investigation or case.
(3) With respect to the impact of civil discovery described in paragraphs (1) and (2), the
court may determine that a stay is unnecessary if a protective order limiting discovery
would protect the interest of one party without unfairly limiting the ability of the
opposing party to pursue the civil case. In no case, however, shall the court impose a
protective order as an alternative to a stay if the effect of such protective order would be
to allow one party to pursue discovery while the other party is substantially unable to do
so.
(4) In this subsection, the terms “related criminal case” and “related criminal
investigation” mean an actual prosecution or investigation in progress at the time at
which the request for the stay, or any subsequent motion to lift the stay is made. In
determining whether a criminal case or investigation is “related” to a civil forfeiture
proceeding, the court shall consider the degree of similarity between the parties,
witnesses, facts, and circumstances involved in the two proceedings, without requiring an
identity with respect to any one or more factors.
(5) In requesting a stay under paragraph (1), the Government may, in appropriate cases,
submit evidence ex parte in order to avoid disclosing any matter that may adversely affect
an ongoing criminal investigation or pending criminal trial.
(6) Whenever a civil forfeiture proceeding is stayed pursuant to this subsection, the court
shall enter any order necessary to preserve the value of the property or to protect the
rights of lienholders or other persons with an interest in the property while the stay is in
effect.
(7) A determination by the court that the claimant has standing to request a stay pursuant
to paragraph (2) shall apply only to this subsection and shall not preclude the
Government from objecting to the standing of the claimant by dispositive motion or at the
time of trial.
(h) In addition to the venue provided for in section 1395 of title 28 or any other provision
of law, in the case of property of a defendant charged with a violation that is the basis for
forfeiture of the property under this section, a proceeding for forfeiture under this section
may be brought in the judicial district in which the defendant owning such property is
found or in the judicial district in which the criminal prosecution is brought.
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

App. 49

§ 981. Civil forfeiture, 18 USCA § 981

(i)(1) Whenever property is civilly or criminally forfeited under this chapter, the Attorney
General or the Secretary of the Treasury, as the case may be, may transfer the forfeited
personal property or the proceeds of the sale of any forfeited personal or real property to
any foreign country which participated directly or indirectly in the seizure or forfeiture of
the property, if such a transfer-(A) has been agreed to by the Secretary of State;
(B) is authorized in an international agreement between the United States and the
foreign country; and
(C) is made to a country which, if applicable, has been certified under section 481(h)
of the Foreign Assistance Act of 1961.
A decision by the Attorney General or the Secretary of the Treasury pursuant to this
paragraph shall not be subject to review. The foreign country shall, in the event of a
transfer of property or proceeds of sale of property under this subsection, bear all
expenses incurred by the United States in the seizure, maintenance, inventory, storage,
forfeiture, and disposition of the property, and all transfer costs. The payment of all such
expenses, and the transfer of assets pursuant to this paragraph, shall be upon such terms
and conditions as the Attorney General or the Secretary of the Treasury may, in his
discretion, set.
(2) The provisions of this section shall not be construed as limiting or superseding any
other authority of the United States to provide assistance to a foreign country in obtaining
property related to a crime committed in the foreign country, including property which is
sought as evidence of a crime committed in the foreign country.
(3) A certified order or judgment of forfeiture by a court of competent jurisdiction of a
foreign country concerning property which is the subject of forfeiture under this section
and was determined by such court to be the type of property described in subsection
(a)(1)(B) of this section, and any certified recordings or transcripts of testimony taken in
a foreign judicial proceeding concerning such order or judgment of forfeiture, shall be
admissible in evidence in a proceeding brought pursuant to this section. Such certified
order or judgment of forfeiture, when admitted into evidence, shall constitute probable
cause that the property forfeited by such order or judgment of forfeiture is subject to
forfeiture under this section and creates a rebuttable presumption of the forfeitability of
such property under this section.
(4) A certified order or judgment of conviction by a court of competent jurisdiction of a
foreign country concerning an unlawful drug activity which gives rise to forfeiture under
this section and any certified recordings or transcripts of testimony taken in a foreign
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

App. 50

§ 981. Civil forfeiture, 18 USCA § 981

judicial proceeding concerning such order or judgment of conviction shall be admissible
in evidence in a proceeding brought pursuant to this section. Such certified order or
judgment of conviction, when admitted into evidence, creates a rebuttable presumption
that the unlawful drug activity giving rise to forfeiture under this section has occurred.
(5) The provisions of paragraphs (3) and (4) of this subsection shall not be construed as
limiting the admissibility of any evidence otherwise admissible, nor shall they limit the
ability of the United States to establish probable cause that property is subject to
forfeiture by any evidence otherwise admissible.
(j) For purposes of this section-(1) the term “Attorney General” means the Attorney General or his delegate; and
(2) the term “Secretary of the Treasury” means the Secretary of the Treasury or his
delegate.
(k) Interbank accounts.-(1) In general.-(A) In general.--For the purpose of a forfeiture under this section or under the
Controlled Substances Act (21 U.S.C. 801 et seq.), if funds are deposited into an
account at a foreign financial institution (as defined in section 984(c)(2)(A) of this
title), and that foreign financial institution (as defined in section 984(c)(2)(A) of this
title) has an interbank account in the United States with a covered financial
institution (as defined in section 5318(j)(1) of title 31), the funds shall be deemed to
have been deposited into the interbank account in the United States, and any
restraining order, seizure warrant, or arrest warrant in rem regarding the funds may
be served on the covered financial institution, and funds in the interbank account, up
to the value of the funds deposited into the account at the foreign financial
institution (as defined in section 984(c)(2)(A) of this title), may be restrained,
seized, or arrested.
(B) Authority to suspend.--The Attorney General, in consultation with the
Secretary of the Treasury, may suspend or terminate a forfeiture under this section if
the Attorney General determines that a conflict of law exists between the laws of the
jurisdiction in which the foreign financial institution (as defined in section
984(c)(2)(A) of this title) is located and the laws of the United States with respect to
liabilities arising from the restraint, seizure, or arrest of such funds, and that such
suspension or termination would be in the interest of justice and would not harm the
national interests of the United States.
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

App. 51

§ 981. Civil forfeiture, 18 USCA § 981

(2) No requirement for government to trace funds.--If a forfeiture action is brought
against funds that are restrained, seized, or arrested under paragraph (1), it shall not be
necessary for the Government to establish that the funds are directly traceable to the
funds that were deposited into the foreign financial institution (as defined in section
984(c)(2)(A) of this title), nor shall it be necessary for the Government to rely on the
application of section 984.
(3) Claims brought by owner of the funds.--If a forfeiture action is instituted against
funds restrained, seized, or arrested under paragraph (1), the owner of the funds
deposited into the account at the foreign financial institution (as defined in section
984(c)(2)(A) of this title) may contest the forfeiture by filing a claim under section
983.
(4) Definitions.--For purposes of this subsection, the following definitions shall apply:
(A) Interbank account.--The term “interbank account” has the same meaning as in
section 984(c)(2)(B).
(B) Owner.-(i) In general.--Except as provided in clause (ii), the term “owner”-(I) means the person who was the owner, as that term is defined in section
983(d)(6), of the funds that were deposited into the foreign financial institution
(as defined in section 984(c)(2)(A) of this title) at the time such funds were
deposited; and
(II) does not include either the foreign financial institution (as defined in
section 984(c)(2)(A) of this title) or any financial institution acting as an
intermediary in the transfer of the funds into the interbank account.
(ii) Exception.--The foreign financial institution (as defined in section
984(c)(2)(A) of this title) may be considered the “owner” of the funds (and no
other person shall qualify as the owner of such funds) only if-(I) the basis for the forfeiture action is wrongdoing committed by the foreign
financial institution (as defined in section 984(c)(2)(A) of this title); or
(II) the foreign financial institution (as defined in section 984(c)(2)(A) of this
title) establishes, by a preponderance of the evidence, that prior to the restraint,
seizure, or arrest of the funds, the foreign financial institution (as defined in
section 984(c)(2)(A) of this title) had discharged all or part of its obligation to
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

App. 52

§ 981. Civil forfeiture, 18 USCA § 981

the prior owner of the funds, in which case the foreign financial institution (as
defined in section 984(c)(2)(A) of this title) shall be deemed the owner of the
funds to the extent of such discharged obligation.
CREDIT(S)
(Added Pub.L. 99-570, Title I, § 1366(a), Oct. 27, 1986, 100 Stat. 3207-35; amended
Pub.L. 100-690, Title VI, §§ 6463(a), (b), 6469(b), 6470(b), (e), (f), 6471(c), Nov. 18,
1988, 102 Stat. 4374, 4377, 4378; Pub.L. 101-73, Title IX, § 963(a), (b), Aug. 9, 1989,
103 Stat. 504; Pub.L. 101-647, Title I, § 103, Title XXV, §§ 2508, 2524, 2525(a), Title
XXXV, § 3531, Nov. 29, 1990, 104 Stat. 4791, 4862, 4873, 4874, 4924; Pub.L. 102-393,
Title VI, § 638(d), Oct. 6, 1992, 106 Stat. 1788; Pub.L. 102-519, Title I, § 104(a), Oct.
25, 1992, 106 Stat. 3385; Pub.L. 102-550, Title XV, §§ 1525(c)(1), 1533, Oct. 28, 1992,
106 Stat. 4065, 4066; Pub.L. 103-322, Title XXXIII, § 330011(s)(2), Sept. 13, 1994, 108
Stat. 2146; Pub.L. 103-447, Title I, § 102(b), Nov. 2, 1994, 108 Stat. 4693; Pub.L. 106185, §§ 2(c)(1), 5(a), 6, 8(a), 20, Apr. 25, 2000, 114 Stat. 210, 213 to 215, 224; Pub.L.
107-56, Title III, §§ 319(a), 320, 372(b)(1), 373(b), Title VIII, § 806, Oct. 26, 2001, 115
Stat. 311, 315, 339, 340, 378; Pub.L. 107-197, Title III, § 301(d), June 25, 2002, 116
Stat. 728; Pub.L. 107-273, Div. B, Title IV, § 4002(a)(2), Nov. 2, 2002, 116 Stat. 1806;
Pub.L. 109-177, Title I, §§ 111, 120, Title IV, §§ 404, 406(a)(3), Mar. 9, 2006, 120 Stat.
209, 221, 244; Pub.L. 111-203, Title III, § 377(3), July 21, 2010, 124 Stat. 1569; Pub.L.
112-186, § 3, Oct. 5, 2012, 126 Stat. 1428; Pub.L. 114-122, Title I, § 105(a), Feb. 18,
2016, 130 Stat. 101.)
Notes of Decisions (364)

Footnotes

1

So in original.

2

So in original. A closing parenthesis probably should appear.

3

So in original. Probably should not be capitalized.

18 U.S.C.A. § 981, 18 USCA § 981
Current through P.L. 116-259. Some statute sections may be more current, see credits for
details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

App. 53

§ 982. Criminal forfeiture, 18 USCA § 982

United States Code Annotated
Title 18. Crimes and Criminal Procedure (Refs & Annos)
Part I. Crimes (Refs & Annos)
Chapter 46. Forfeiture (Refs & Annos)
18 U.S.C.A. § 982
§ 982. Criminal forfeiture
Effective: June 5, 2012
Currentness

(a)(1) court, in imposing sentence on a person convicted of an offense in violation of
section 1956, 1957, or 1960 of this title, shall order that the person forfeit to the United
States any property, real or personal, involved in such offense, or any property traceable
to such property.
(2) The court, in imposing sentence on a person convicted of a violation of, or a
conspiracy to violate-(A) section 215, 656, 657, 1005, 1006, 1007, 1014, 1341, 1343, or 1344 of this title,
affecting a financial institution, or
(B) section 471, 472, 473, 474, 476, 477, 478, 479, 480, 481, 485, 486, 487, 488, 501,
502, 510, 542, 545, 555, 842, 844, 1028, 1029, or 1030 of this title,
shall order that the person forfeit to the United States any property constituting, or
derived from, proceeds the person obtained directly or indirectly, as the result of such
violation.
(3) The court, in imposing a sentence on a person convicted of an offense under-(A) section 666(a)(1) (relating to Federal program fraud);
(B) section 1001 (relating to fraud and false statements);
(C) section 1031 (relating to major fraud against the United States);
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

App. 54

§ 982. Criminal forfeiture, 18 USCA § 982

(D) section 1032 (relating to concealment of assets from conservator, receiver, or
liquidating agent of insured financial institution);
(E) section 1341 (relating to mail fraud); or
(F) section 1343 (relating to wire fraud),
involving the sale of assets acquired or held by the the1 Federal Deposit Insurance
Corporation, as conservator or receiver for a financial institution or any other conservator
for a financial institution appointed by the Office of the Comptroller of the Currency, or
the National Credit Union Administration, as conservator or liquidating agent for a
financial institution, shall order that the person forfeit to the United States any property,
real or personal, which represents or is traceable to the gross receipts obtained, directly or
indirectly, as a result of such violation.
(4) With respect to an offense listed in subsection (a)(3) committed for the purpose of
executing or attempting to execute any scheme or artifice to defraud, or for obtaining
money or property by means of false or fraudulent statements, pretenses, representations,
or promises, the gross receipts of such an offense shall include any property, real or
personal, tangible or intangible, which is obtained, directly or indirectly, as a result of
such offense.
(5) The court, in imposing sentence on a person convicted of a violation or conspiracy to
violate-(A) section 511 (altering or removing motor vehicle identification numbers);
(B) section 553 (importing or exporting stolen motor vehicles);
(C) section 2119 (armed robbery of automobiles);
(D) section 2312 (transporting stolen motor vehicles in interstate commerce); or
(E) section 2313 (possessing or selling a stolen motor vehicle that has moved in
interstate commerce);
shall order that the person forfeit to the United States any property, real or personal,
which represents or is traceable to the gross proceeds obtained, directly or indirectly, as a
result of such violation.
(6)(A) The court, in imposing sentence on a person convicted of a violation of, or
conspiracy to violate, section 274(a), 274A(a)(1), or 274A(a)(2) of the Immigration and
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

App. 55

§ 982. Criminal forfeiture, 18 USCA § 982

Nationality Act or section 555, 1425, 1426, 1427, 1541, 1542, 1543, 1544, or 1546 of this
title, or a violation of, or conspiracy to violate, section 1028 of this title if committed in
connection with passport or visa issuance or use, shall order that the person forfeit to the
United States, regardless of any provision of State law-(i) any conveyance, including any vessel, vehicle, or aircraft used in the commission of
the offense of which the person is convicted; and
(ii) any property real or personal-(I) that constitutes, or is derived from or is traceable to the proceeds obtained
directly or indirectly from the commission of the offense of which the person is
convicted; or
(II) that is used to facilitate, or is intended to be used to facilitate, the commission of
the offense of which the person is convicted.
(B) The court, in imposing sentence on a person described in subparagraph (A), shall
order that the person forfeit to the United States all property described in that
subparagraph.
(7) The court, in imposing sentence on a person convicted of a Federal health care
offense, shall order the person to forfeit property, real or personal, that constitutes or is
derived, directly or indirectly, from gross proceeds traceable to the commission of the
offense.
(8) The court, in sentencing a defendant convicted of an offense under section 1028,
1029, 1341, 1342, 1343, or 1344, or of a conspiracy to commit such an offense, if the
offense involves telemarketing (as that term is defined in section 2325), shall order that
the defendant forfeit to the United States any real or personal property-(A) used or intended to be used to commit, to facilitate, or to promote the commission
of such offense; and
(B) constituting, derived from, or traceable to the gross proceeds that the defendant
obtained directly or indirectly as a result of the offense.
(b)(1) The forfeiture of property under this section, including any seizure and disposition
of the property and any related judicial or administrative proceeding, shall be governed
by the provisions of section 413 (other than subsection (d) of that section) of the
Comprehensive Drug Abuse Prevention and Control Act of 1970 (21 U.S.C. 853).
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

App. 56

§ 982. Criminal forfeiture, 18 USCA § 982

(2) The substitution of assets provisions of subsection 413(p) shall not be used to order a
defendant to forfeit assets in place of the actual property laundered where such defendant
acted merely as an intermediary who handled but did not retain the property in the course
of the money laundering offense unless the defendant, in committing the offense or
offenses giving rise to the forfeiture, conducted three or more separate transactions
involving a total of $100,000 or more in any twelve month period.
CREDIT(S)
(Added Pub.L. 99-570, Title I, § 1366(a), Oct. 27, 1986, 100 Stat. 3207-39; amended
Pub.L. 100-690, Title VI, §§ 6463(c), 6464, Nov. 18, 1988, 102 Stat. 4374, 4375; Pub.L.
101-73, Title IX, § 963(c), Aug. 9, 1989, 103 Stat. 504; Pub.L. 101-647, Title XIV, §§
1401, 1403, Title XXV, § 2525(b), Nov. 29, 1990, 104 Stat. 4835, 4874; Pub.L. 102-393,
Title VI, § 638(e), Oct. 6, 1992, 106 Stat. 1788; Pub.L. 102-519, Title I, § 104(b), Oct.
25, 1992, 106 Stat. 3385; Pub.L. 102-550, Title XV, § 1512(c), Oct. 28, 1992, 106 Stat.
4058; Pub.L. 103-322, Title XXXIII, § 330011(s)(1), Sept. 13, 1994, 108 Stat. 2145;
Pub.L. 104-191, Title II, § 249(a), (b), Aug. 21, 1996, 110 Stat. 2020; Pub.L. 104-208,
Div. C, Title II, § 217, Sept. 30, 1996, 110 Stat. 3009-573; Pub.L. 105-184, § 2, June 23,
1998, 112 Stat. 520; Pub.L. 105-318, § 6(a), Oct. 30, 1998, 112 Stat. 3010; Pub.L. 106185, § 18(b), Apr. 25, 2000, 114 Stat. 223; Pub.L. 107-56, Title III, § 372(b)(2), Oct. 26,
2001, 115 Stat. 339; Pub.L. 107-273, Div. B, Title IV, § 4002(b)(10), Nov. 2, 2002, 116
Stat. 1808; Pub.L. 109-295, Title V, § 551(c), Oct. 4, 2006, 120 Stat. 1390; Pub.L. 110161, Div. E, Title V, § 553(b), Dec. 26, 2007, 121 Stat. 2082; Pub.L. 111-203, Title III, §
377(4), July 21, 2010, 124 Stat. 1569; Pub.L. 112-127, § 5, June 5, 2012, 126 Stat. 371.)
Notes of Decisions (139)

Footnotes
1

So in original.

18 U.S.C.A. § 982, 18 USCA § 982
Current through P.L. 116-259. Some statute sections may be more current, see credits for
details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

App. 57

§ 853. Criminal forfeitures, 21 USCA § 853

United States Code Annotated
Title 21. Food and Drugs (Refs & Annos)
Chapter 13. Drug Abuse Prevention and Control (Refs & Annos)
Subchapter I. Control and Enforcement
Part D. Offenses and Penalties
21 U.S.C.A. § 853
§ 853. Criminal forfeitures
Effective: December 1, 2009
Currentness

(a) Property subject to criminal forfeiture
Any person convicted of a violation of this subchapter or subchapter II punishable by
imprisonment for more than one year shall forfeit to the United States, irrespective of any
provision of State law-(1) any property constituting, or derived from, any proceeds the person obtained, directly
or indirectly, as the result of such violation;
(2) any of the person’s property used, or intended to be used, in any manner or part, to
commit, or to facilitate the commission of, such violation; and
(3) in the case of a person convicted of engaging in a continuing criminal enterprise in
violation of section 848 of this title, the person shall forfeit, in addition to any property
described in paragraph (1) or (2), any of his interest in, claims against, and property or
contractual rights affording a source of control over, the continuing criminal enterprise.
The court, in imposing sentence on such person, shall order, in addition to any other
sentence imposed pursuant to this subchapter or subchapter II, that the person forfeit to the
United States all property described in this subsection. In lieu of a fine otherwise authorized
by this part, a defendant who derives profits or other proceeds from an offense may be
fined not more than twice the gross profits or other proceeds.
(b) Meaning of term “property”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

App. 58

§ 853. Criminal forfeitures, 21 USCA § 853

Property subject to criminal forfeiture under this section includes-(1) real property, including things growing on, affixed to, and found in land; and
(2) tangible and intangible personal property, including rights, privileges, interests,
claims, and securities.
(c) Third party transfers
All right, title, and interest in property described in subsection (a) vests in the United States
upon the commission of the act giving rise to forfeiture under this section. Any such
property that is subsequently transferred to a person other than the defendant may be the
subject of a special verdict of forfeiture and thereafter shall be ordered forfeited to the
United States, unless the transferee establishes in a hearing pursuant to subsection (n) that
he is a bona fide purchaser for value of such property who at the time of purchase was
reasonably without cause to believe that the property was subject to forfeiture under this
section.
(d) Rebuttable presumption
There is a rebuttable presumption at trial that any property of a person convicted of a felony
under this subchapter or subchapter II is subject to forfeiture under this section if the United
States establishes by a preponderance of the evidence that-(1) such property was acquired by such person during the period of the violation of this
subchapter or subchapter II or within a reasonable time after such period; and
(2) there was no likely source for such property other than the violation of this subchapter
or subchapter II.
(e) Protective orders
(1) Upon application of the United States, the court may enter a restraining order or
injunction, require the execution of a satisfactory performance bond, or take any other
action to preserve the availability of property described in subsection (a) for forfeiture
under this section-(A) upon the filing of an indictment or information charging a violation of this
subchapter or subchapter II for which criminal forfeiture may be ordered under this
section and alleging that the property with respect to which the order is sought would,
in the event of conviction, be subject to forfeiture under this section; or

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

App. 59

§ 853. Criminal forfeitures, 21 USCA § 853

(B) prior to the filing of such an indictment or information, if, after notice to persons
appearing to have an interest in the property and opportunity for a hearing, the court
determines that-(i) there is a substantial probability that the United States will prevail on the issue of
forfeiture and that failure to enter the order will result in the property being destroyed,
removed from the jurisdiction of the court, or otherwise made unavailable for
forfeiture; and
(ii) the need to preserve the availability of the property through the entry of the
requested order outweighs the hardship on any party against whom the order is to be
entered:
Provided, however, That an order entered pursuant to subparagraph (B) shall be effective
for not more than ninety days, unless extended by the court for good cause shown or unless
an indictment or information described in subparagraph (A) has been filed.
(2) A temporary restraining order under this subsection may be entered upon application
of the United States without notice or opportunity for a hearing when an information or
indictment has not yet been filed with respect to the property, if the United States
demonstrates that there is probable cause to believe that the property with respect to which
the order is sought would, in the event of conviction, be subject to forfeiture under this
section and that provision of notice will jeopardize the availability of the property for
forfeiture. Such a temporary order shall expire not more than fourteen days after the date
on which it is entered, unless extended for good cause shown or unless the party against
whom it is entered consents to an extension for a longer period. A hearing requested
concerning an order entered under this paragraph shall be held at the earliest possible time
and prior to the expiration of the temporary order.
(3) The court may receive and consider, at a hearing held pursuant to this subsection,
evidence and information that would be inadmissible under the Federal Rules of Evidence.
(4) Order to repatriate and deposit
(A) In general
Pursuant to its authority to enter a pretrial restraining order under this section, the
court may order a defendant to repatriate any property that may be seized and
forfeited, and to deposit that property pending trial in the registry of the court, or with
the United States Marshals Service or the Secretary of the Treasury, in an interestbearing account, if appropriate.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

App. 60

§ 853. Criminal forfeitures, 21 USCA § 853

(B) Failure to comply
Failure to comply with an order under this subsection, or an order to repatriate
property under subsection (p), shall be punishable as a civil or criminal contempt of
court, and may also result in an enhancement of the sentence of the defendant under
the obstruction of justice provision of the Federal Sentencing Guidelines.
(f) Warrant of seizure
The Government may request the issuance of a warrant authorizing the seizure of property
subject to forfeiture under this section in the same manner as provided for a search warrant.
If the court determines that there is probable cause to believe that the property to be seized
would, in the event of conviction, be subject to forfeiture and that an order under subsection
(e) may not be sufficient to assure the availability of the property for forfeiture, the court
shall issue a warrant authorizing the seizure of such property.
(g) Execution
Upon entry of an order of forfeiture under this section, the court shall authorize the
Attorney General to seize all property ordered forfeited upon such terms and conditions as
the court shall deem proper. Following entry of an order declaring the property forfeited,
the court may, upon application of the United States, enter such appropriate restraining
orders or injunctions, require the execution of satisfactory performance bonds, appoint
receivers, conservators, appraisers, accountants, or trustees, or take any other action to
protect the interest of the United States in the property ordered forfeited. Any income
accruing to or derived from property ordered forfeited under this section may be used to
offset ordinary and necessary expenses to the property which are required by law, or which
are necessary to protect the interests of the United States or third parties.
(h) Disposition of property
Following the seizure of property ordered forfeited under this section, the Attorney General
shall direct the disposition of the property by sale or any other commercially feasible
means, making due provision for the rights of any innocent persons. Any property right or
interest not exercisable by, or transferable for value to, the United States shall expire and
shall not revert to the defendant, nor shall the defendant or any person acting in concert
with him or on his behalf be eligible to purchase forfeited property at any sale held by the
United States. Upon application of a person, other than the defendant or a person acting in
concert with him or on his behalf, the court may restrain or stay the sale or disposition of
the property pending the conclusion of any appeal of the criminal case giving rise to the
forfeiture, if the applicant demonstrates that proceeding with the sale or disposition of the
property will result in irreparable injury, harm, or loss to him.
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

App. 61

§ 853. Criminal forfeitures, 21 USCA § 853

(i) Authority of the Attorney General
With respect to property ordered forfeited under this section, the Attorney General is
authorized to-(1) grant petitions for mitigation or remission of forfeiture, restore forfeited property to
victims of a violation of this subchapter, or take any other action to protect the rights of
innocent persons which is in the interest of justice and which is not inconsistent with the
provisions of this section;
(2) compromise claims arising under this section;
(3) award compensation to persons providing information resulting in a forfeiture under
this section;
(4) direct the disposition by the United States, in accordance with the provisions of
section 881(e) of this title, of all property ordered forfeited under this section by public
sale or any other commercially feasible means, making due provision for the rights of
innocent persons; and
(5) take appropriate measures necessary to safeguard and maintain property ordered
forfeited under this section pending its disposition.
(j) Applicability of civil forfeiture provisions
Except to the extent that they are inconsistent with the provisions of this section, the
provisions of section 881(d) of this title shall apply to a criminal forfeiture under this
section.
(k) Bar on intervention
Except as provided in subsection (n), no party claiming an interest in property subject to
forfeiture under this section may-(1) intervene in a trial or appeal of a criminal case involving the forfeiture of such
property under this section; or
(2) commence an action at law or equity against the United States concerning the validity
of his alleged interest in the property subsequent to the filing of an indictment or
information alleging that the property is subject to forfeiture under this section.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

App. 62

§ 853. Criminal forfeitures, 21 USCA § 853

(l) Jurisdiction to enter orders
The district courts of the United States shall have jurisdiction to enter orders as provided
in this section without regard to the location of any property which may be subject to
forfeiture under this section or which has been ordered forfeited under this section.
(m) Depositions
In order to facilitate the identification and location of property declared forfeited and to
facilitate the disposition of petitions for remission or mitigation of forfeiture, after the entry
of an order declaring property forfeited to the United States, the court may, upon
application of the United States, order that the testimony of any witness relating to the
property forfeited be taken by deposition and that any designated book, paper, document,
record, recording, or other material not privileged be produced at the same time and place,
in the same manner as provided for the taking of depositions under Rule 15 of the Federal
Rules of Criminal Procedure.
(n) Third party interests
(1) Following the entry of an order of forfeiture under this section, the United States shall
publish notice of the order and of its intent to dispose of the property in such manner as the
Attorney General may direct. The Government may also, to the extent practicable, provide
direct written notice to any person known to have alleged an interest in the property that is
the subject of the order of forfeiture as a substitute for published notice as to those persons
so notified.
(2) Any person, other than the defendant, asserting a legal interest in property which has
been ordered forfeited to the United States pursuant to this section may, within thirty days
of the final publication of notice or his receipt of notice under paragraph (1), whichever is
earlier, petition the court for a hearing to adjudicate the validity of his alleged interest in
the property. The hearing shall be held before the court alone, without a jury.
(3) The petition shall be signed by the petitioner under penalty of perjury and shall set forth
the nature and extent of the petitioner’s right, title, or interest in the property, the time and
circumstances of the petitioner’s acquisition of the right, title, or interest in the property,
any additional facts supporting the petitioner’s claim, and the relief sought.
(4) The hearing on the petition shall, to the extent practicable and consistent with the
interests of justice, be held within thirty days of the filing of the petition. The court may
consolidate the hearing on the petition with a hearing on any other petition filed by a person
other than the defendant under this subsection.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

App. 63

§ 853. Criminal forfeitures, 21 USCA § 853

(5) At the hearing, the petitioner may testify and present evidence and witnesses on his
own behalf, and cross-examine witnesses who appear at the hearing. The United States
may present evidence and witnesses in rebuttal and in defense of its claim to the property
and cross-examine witnesses who appear at the hearing. In addition to testimony and
evidence presented at the hearing, the court shall consider the relevant portions of the
record of the criminal case which resulted in the order of forfeiture.
(6) If, after the hearing, the court determines that the petitioner has established by a
preponderance of the evidence that-(A) the petitioner has a legal right, title, or interest in the property, and such right, title,
or interest renders the order of forfeiture invalid in whole or in part because the right,
title, or interest was vested in the petitioner rather than the defendant or was superior to
any right, title, or interest of the defendant at the time of the commission of the acts
which gave rise to the forfeiture of the property under this section; or
(B) the petitioner is a bona fide purchaser for value of the right, title, or interest in the
property and was at the time of purchase reasonably without cause to believe that the
property was subject to forfeiture under this section;
the court shall amend the order of forfeiture in accordance with its determination.
(7) Following the court’s disposition of all petitions filed under this subsection, or if no
such petitions are filed following the expiration of the period provided in paragraph (2) for
the filing of such petitions, the United States shall have clear title to property that is the
subject of the order of forfeiture and may warrant good title to any subsequent purchaser
or transferee.
(o) Construction
The provisions of this section shall be liberally construed to effectuate its remedial
purposes.
(p) Forfeiture of substitute property
(1) In general
Paragraph (2) of this subsection shall apply, if any property described in subsection (a),
as a result of any act or omission of the defendant-(A) cannot be located upon the exercise of due diligence;
(B) has been transferred or sold to, or deposited with, a third party;
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

App. 64

§ 853. Criminal forfeitures, 21 USCA § 853

(C) has been placed beyond the jurisdiction of the court;
(D) has been substantially diminished in value; or
(E) has been commingled with other property which cannot be divided without
difficulty.
(2) Substitute property
In any case described in any of subparagraphs (A) through (E) of paragraph (1), the court
shall order the forfeiture of any other property of the defendant, up to the value of any
property described in subparagraphs (A) through (E) of paragraph (1), as applicable.
(3) Return of property to jurisdiction
In the case of property described in paragraph (1)(C), the court may, in addition to any
other action authorized by this subsection, order the defendant to return the property to
the jurisdiction of the court so that the property may be seized and forfeited.
(q) Restitution for cleanup of clandestine laboratory sites
The court, when sentencing a defendant convicted of an offense under this subchapter or
subchapter II involving the manufacture, the possession, or the possession with intent to
distribute, of amphetamine or methamphetamine, shall-(1) order restitution as provided in sections 3612 and 3664 of Title 18;
(2) order the defendant to reimburse the United States, the State or local government
concerned, or both the United States and the State or local government concerned for the
costs incurred by the United States or the State or local government concerned, as the
case may be, for the cleanup associated with the manufacture of amphetamine or
methamphetamine by the defendant, or on premises or in property that the defendant
owns, resides, or does business in; and
(3) order restitution to any person injured as a result of the offense as provided in section
3663A of Title 18.
CREDIT(S)
(Pub.L. 91-513, Title II, § 413, as added and amended Pub.L. 98-473, Title II, §§ 303,
2301(d)-(f), Oct. 12, 1984, 98 Stat. 2044, 2192, 2193; Pub.L. 99-570, Title I, §§ 1153(b),
1864, Oct. 27, 1986, 100 Stat. 3207-13, 3207-54; Pub.L. 104-237, Title II, § 207, Oct. 3,
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

App. 65

§ 853. Criminal forfeitures, 21 USCA § 853

1996, 110 Stat. 3104; Pub.L. 106-310, Div. B, Title XXXVI, § 3613(a), Oct. 17, 2000, 114
Stat. 1229; Pub.L. 107-56, Title III, § 319(d), Oct. 26, 2001, 115 Stat. 314; Pub.L. 109177, Title VII, § 743(a), Mar. 9, 2006, 120 Stat. 272; Pub.L. 111-16, § 5, May 7, 2009, 123
Stat. 1608.)
Notes of Decisions (518)

21 U.S.C.A. § 853, 21 USCA § 853
Current through P.L. 116-259. Some statute sections may be more current, see credits for
details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

App. 66

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

United States Code Annotated
Federal Rules of Criminal Procedure for the United States District Courts
(Refs & Annos)
Title VII. Post-Conviction Procedures
Federal Rules of Criminal Procedure, Rule 32.2
Rule 32.2 Criminal Forfeiture
Currentness

(a) Notice to the Defendant. A court must not enter a judgment of forfeiture in a
criminal proceeding unless the indictment or information contains notice to the defendant
that the government will seek the forfeiture of property as part of any sentence in
accordance with the applicable statute. The notice should not be designated as a count of
the indictment or information. The indictment or information need not identify the
property subject to forfeiture or specify the amount of any forfeiture money judgment
that the government seeks.
(b) Entering a Preliminary Order of Forfeiture.
(1) Forfeiture Phase of the Trial.
(A) Forfeiture Determinations. As soon as practical after a verdict or finding of
guilty, or after a plea of guilty or nolo contendere is accepted, on any count in an
indictment or information regarding which criminal forfeiture is sought, the court
must determine what property is subject to forfeiture under the applicable statute. If
the government seeks forfeiture of specific property, the court must determine
whether the government has established the requisite nexus between the property
and the offense. If the government seeks a personal money judgment, the court must
determine the amount of money that the defendant will be ordered to pay.
(B) Evidence and Hearing. The court’s determination may be based on evidence
already in the record, including any written plea agreement, and on any additional
evidence or information submitted by the parties and accepted by the court as
relevant and reliable. If the forfeiture is contested, on either party’s request the court
must conduct a hearing after the verdict or finding of guilty.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

App. 67

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

(2) Preliminary Order.
(A) Contents of a Specific Order. If the court finds that property is subject to
forfeiture, it must promptly enter a preliminary order of forfeiture setting forth the
amount of any money judgment, directing the forfeiture of specific property, and
directing the forfeiture of any substitute property if the government has met the
statutory criteria. The court must enter the order without regard to any third party’s
interest in the property. Determining whether a third party has such an interest must
be deferred until any third party files a claim in an ancillary proceeding under Rule
32.2(c).
(B) Timing. Unless doing so is impractical, the court must enter the preliminary
order sufficiently in advance of sentencing to allow the parties to suggest revisions
or modifications before the order becomes final as to the defendant under Rule
32.2(b)(4).
(C) General Order. If, before sentencing, the court cannot identify all the specific
property subject to forfeiture or calculate the total amount of the money judgment,
the court may enter a forfeiture order that:
(i) lists any identified property;
(ii) describes other property in general terms; and
(iii) states that the order will be amended under Rule 32.2(e)(1) when additional
specific property is identified or the amount of the money judgment has been
calculated.
(3) Seizing Property. The entry of a preliminary order of forfeiture authorizes the
Attorney General (or a designee) to seize the specific property subject to forfeiture; to
conduct any discovery the court considers proper in identifying, locating, or disposing
of the property; and to commence proceedings that comply with any statutes governing
third-party rights. The court may include in the order of forfeiture conditions
reasonably necessary to preserve the property’s value pending any appeal.
(4) Sentence and Judgment.
(A) When Final. At sentencing--or at any time before sentencing if the defendant
consents--the preliminary forfeiture order becomes final as to the defendant. If the
order directs the defendant to forfeit specific property, it remains preliminary as to
third parties until the ancillary proceeding is concluded under Rule 32.2(c).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

App. 68

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

(B) Notice and Inclusion in the Judgment. The court must include the forfeiture
when orally announcing the sentence or must otherwise ensure that the defendant
knows of the forfeiture at sentencing. The court must also include the forfeiture
order, directly or by reference, in the judgment, but the court’s failure to do so may
be corrected at any time under Rule 36.
(C) Time to Appeal. The time for the defendant or the government to file an appeal
from the forfeiture order, or from the court’s failure to enter an order, begins to run
when judgment is entered. If the court later amends or declines to amend a forfeiture
order to include additional property under Rule 32.2(e), the defendant or the
government may file an appeal regarding that property under Federal Rule of
Appellate Procedure 4(b). The time for that appeal runs from the date when the
order granting or denying the amendment becomes final.
(5) Jury Determination.
(A) Retaining the Jury. In any case tried before a jury, if the indictment or
information states that the government is seeking forfeiture, the court must
determine before the jury begins deliberating whether either party requests that the
jury be retained to determine the forfeitability of specific property if it returns a
guilty verdict.
(B) Special Verdict Form. If a party timely requests to have the jury determine
forfeiture, the government must submit a proposed Special Verdict Form listing each
property subject to forfeiture and asking the jury to determine whether the
government has established the requisite nexus between the property and the offense
committed by the defendant.
(6) Notice of the Forfeiture Order.
(A) Publishing and Sending Notice. If the court orders the forfeiture of specific
property, the government must publish notice of the order and send notice to any
person who reasonably appears to be a potential claimant with standing to contest
the forfeiture in the ancillary proceeding.
(B) Content of the Notice. The notice must describe the forfeited property, state the
times under the applicable statute when a petition contesting the forfeiture must be
filed, and state the name and contact information for the government attorney to be
served with the petition.
(C) Means of Publication; Exceptions to Publication Requirement. Publication
must take place as described in Supplemental Rule G(4)(a)(iii) of the Federal Rules
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

App. 69

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

of Civil Procedure, and may be by any means described in Supplemental Rule
G(4)(a)(iv). Publication is unnecessary if any exception in Supplemental Rule
G(4)(a)(i) applies.
(D) Means of Sending the Notice. The notice may be sent in accordance with
Supplemental Rules G(4)(b)(iii)-(v) of the Federal Rules of Civil Procedure.
(7) Interlocutory Sale. At any time before entry of a final forfeiture order, the court,
in accordance with Supplemental Rule G(7) of the Federal Rules of Civil Procedure,
may order the interlocutory sale of property alleged to be forfeitable.
(c) Ancillary Proceeding; Entering a Final Order of Forfeiture.
(1) In General. If, as prescribed by statute, a third party files a petition asserting an
interest in the property to be forfeited, the court must conduct an ancillary proceeding,
but no ancillary proceeding is required to the extent that the forfeiture consists of a
money judgment.
(A) In the ancillary proceeding, the court may, on motion, dismiss the petition for
lack of standing, for failure to state a claim, or for any other lawful reason. For
purposes of the motion, the facts set forth in the petition are assumed to be true.
(B) After disposing of any motion filed under Rule 32.2(c)(1)(A) and before
conducting a hearing on the petition, the court may permit the parties to conduct
discovery in accordance with the Federal Rules of Civil Procedure if the court
determines that discovery is necessary or desirable to resolve factual issues. When
discovery ends, a party may move for summary judgment under Federal Rule of
Civil Procedure 56.
(2) Entering a Final Order. When the ancillary proceeding ends, the court must enter
a final order of forfeiture by amending the preliminary order as necessary to account
for any third-party rights. If no third party files a timely petition, the preliminary order
becomes the final order of forfeiture if the court finds that the defendant (or any
combination of defendants convicted in the case) had an interest in the property that is
forfeitable under the applicable statute. The defendant may not object to the entry of
the final order on the ground that the property belongs, in whole or in part, to a
codefendant or third party; nor may a third party object to the final order on the ground
that the third party had an interest in the property.
(3) Multiple Petitions. If multiple third-party petitions are filed in the same case, an
order dismissing or granting one petition is not appealable until rulings are made on all
the petitions, unless the court determines that there is no just reason for delay.
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

App. 70

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

(4) Ancillary Proceeding Not Part of Sentencing. An ancillary proceeding is not part
of sentencing.
(d) Stay Pending Appeal. If a defendant appeals from a conviction or an order of
forfeiture, the court may stay the order of forfeiture on terms appropriate to ensure that
the property remains available pending appellate review. A stay does not delay the
ancillary proceeding or the determination of a third party’s rights or interests. If the court
rules in favor of any third party while an appeal is pending, the court may amend the
order of forfeiture but must not transfer any property interest to a third party until the
decision on appeal becomes final, unless the defendant consents in writing or on the
record.
(e) Subsequently Located Property; Substitute Property.
(1) In General. On the government’s motion, the court may at any time enter an order
of forfeiture or amend an existing order of forfeiture to include property that:
(A) is subject to forfeiture under an existing order of forfeiture but was located and
identified after that order was entered; or
(B) is substitute property that qualifies for forfeiture under an applicable statute.
(2) Procedure. If the government shows that the property is subject to forfeiture under
Rule 32.2(e)(1), the court must:
(A) enter an order forfeiting that property, or amend an existing preliminary or final
order to include it; and
(B) if a third party files a petition claiming an interest in the property, conduct an
ancillary proceeding under Rule 32.2(c).
(3) Jury Trial Limited. There is no right to a jury trial under Rule 32.2(e).
CREDIT(S)
(Added Apr. 17, 2000, eff. Dec. 1, 2000; amended Apr. 29, 2002, eff. Dec. 1, 2002; Mar.
26, 2009, eff. Dec. 1, 2009.)
ADVISORY COMMITTEE NOTES
2000 Adoption
Rule 32.2 consolidates a number of procedural rules governing the forfeiture of assets in
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

App. 71

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

a criminal case. Existing Rules 7(c)(2), 31(e) and 32(d)(2) are also amended to conform
to the new rule. In addition, the forfeiture-related provisions of Rule 38(e) are stricken.
Subdivision (a). Subdivision (a) is derived from Rule 7(c)(2) which provides that
notwithstanding statutory authority for the forfeiture of property following a criminal
conviction, no forfeiture order may be entered unless the defendant was given notice of
the forfeiture in the indictment or information. As courts have held, subdivision (a) is not
intended to require that an itemized list of the property to be forfeited appear in the
indictment or information itself. The subdivision reflects the trend in caselaw interpreting
present Rule 7(c). Under the most recent cases, Rule 7(c) sets forth a requirement that the
government give the defendant notice that it will be seeking forfeiture in accordance with
the applicable statute. It does not require a substantive allegation in which the property
subject to forfeiture, or the defendant’s interest in the property, must be described in
detail. See United States v. DeFries, 129 F.3d 1293 (D.C.Cir. 1997) (it is not necessary to
specify in either the indictment or a bill of particulars that the government is seeking
forfeiture of a particular asset, such as the defendant’s salary; to comply with Rule 7(c),
the government need only put the defendant on notice that it will seek to forfeit
everything subject to forfeiture under the applicable statute, such as all property
“acquired or maintained” as a result of a RICO violation). See also United States v.
Moffitt, Zwerling & Kemler, P.C., 83 F.3d 660, 665 (4th Cir. 1996), aff’g 846 F.Supp.
463 (E.D. Va. 1994) (Moffitt I) (indictment need not list each asset subject to forfeiture;
under Rule 7(c), this can be done with bill of particulars); United States v. Voigt, 89 F.3d
1050 (3rd Cir. 1996) (court may amend order of forfeiture at any time to include
substitute assets).
Subdivision (b). Subdivision (b) replaces Rule 31(e) which provides that the jury in a
criminal case must return a special verdict “as to the extent of the interest or property
subject to forfeiture.” See United States v. Saccoccia, 58 F.3d 754 (1st Cir. 1995) (Rule
31(e) only applies to jury trials; no special verdict required when defendant waives right
to jury on forfeiture issues).
One problem under Rule 31(e) concerns the scope of the determination that must be made
prior to entering an order of forfeiture. This issue is the same whether the determination
is made by the court or by the jury.
As mentioned, the current rule requires the jury to return a special verdict “as to the
extent of the interest or property subject to forfeiture.” Some courts interpret this to mean
only that the jury must answer “yes” or “no” when asked if the property named in the
indictment is subject to forfeiture under the terms of the forfeiture statute--e.g. was the
property used to facilitate a drug offense? Other courts also ask the jury if the defendant
has a legal interest in the forfeited property. Still other courts, including the Fourth
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

App. 72

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

Circuit, require the jury to determine the extent of the defendant’s interest in the property
vis a vis third parties. See United States v. Ham, 58 F.3d 78 (4th Cir. 1995) (case
remanded to the district court to impanel a jury to determine, in the first instance, the
extent of the defendant’s forfeitable interest in the subject property).
The notion that the “extent” of the defendant’s interest must be established as part of the
criminal trial is related to the fact that criminal forfeiture is an in personam action in
which only the defendant’s interest in the property may be forfeited. United States v.
Riley, 78 F.3d 367 (8th Cir. 1996). When the criminal forfeiture statutes were first
enacted in the 1970’s, it was clear that a forfeiture of property other than the defendant’s
could not occur in a criminal case, but there was no mechanism designed to limit the
forfeiture to the defendant’s interest. Accordingly, Rule 31(e) was drafted to make a
determination of the “extent” of the defendant’s interest part of the verdict.
The problem is that third parties who might have an interest in the forfeited property are
not parties to the criminal case. At the same time, a defendant who has no interest in
property has no incentive, at trial, to dispute the government’s forfeiture allegations.
Thus, it was apparent by the 1980’s that Rule 31(e) was an inadequate safeguard against
the inadvertent forfeiture of property in which the defendant held no interest.
In 1984, Congress addressed this problem when it enacted a statutory scheme whereby
third party interests in criminally forfeited property are litigated by the court in an
ancillary proceeding following the conclusion of the criminal case and the entry of a
preliminary order of forfeiture. See 21 U.S.C. § 853(n); 18 U.S.C. § 1963(1). Under this
scheme, the court orders the forfeiture of the defendant’s interest in the
property--whatever that interest may be--in the criminal case. At that point, the court
conducts a separate proceeding in which all potential third party claimants are given an
opportunity to challenge the forfeiture by asserting a superior interest in the property.
This proceeding does not involve relitigation of the forfeitability of the property; its only
purpose is to determine whether any third party has a legal interest in the forfeited
property.
The notice provisions regarding the ancillary proceeding are equivalent to the notice
provisions that govern civil forfeitures. Compare 21 U.S.C. § 853(n)(1) with 19 U.S.C. §
1607(a); see United States v. Bouler, 927 F.Supp. 911 (W.D.N.C. 1996) (civil notice
rules apply to ancillary criminal proceedings). Notice is published and sent to third
parties that have a potential interest. See United States v. BCCI Holdings (Luxembourg)
S.A. (In re Petition of Indosuez Bank), 916 F.Supp. 1276 (D.D.C. 1996) (discussing steps
taken by government to provide notice of criminal forfeiture to third parties). If no one
files a claim, or if all claims are denied following a hearing, the forfeiture becomes final
and the United States is deemed to have clear title to the property. 21 U.S.C. § 853(n)(7);
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

App. 73

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

United States v. Hentz, 1996 WL 355327 (E.D. Pa. June 20, 1996) (once third party fails
to file a claim in the ancillary proceeding, government has clear title under § 853(n)(7)
and can market the property notwithstanding third party’s name on the deed).
Thus, the ancillary proceeding has become the forum for determining the extent of the
defendant’s forfeitable interest in the property. This allows the court to conduct a
proceeding in which all third party claimants can participate and which ensures that the
property forfeited actually belongs to the defendant.
Since the enactment of the ancillary proceeding statutes, the requirement in Rule 31(e)
that the court (or jury) determine the extent of the defendant’ s interest in the property as
part of the criminal trial has become an unnecessary anachronism that leads more often
than not to duplication and a waste of judicial resources. There is no longer any reason to
delay the conclusion of the criminal trial with a lengthy hearing over the extent of the
defendant’s interest in property when the same issues will have to be litigated a second
time in the ancillary proceeding if someone files a claim challenging the forfeiture. For
example, in United States v. Messino, 917 F.Supp. 1307 (N.D. Ill. 1996), the court
allowed the defendant to call witnesses to attempt to establish that they, not he, were the
true owners of the property. After the jury rejected this evidence and the property was
forfeited, the court conducted an ancillary proceeding in which the same witnesses
litigated their claims to the same property.
A more sensible procedure would be for the court, once it (or a jury) determines that
property was involved in the criminal offense for which the defendant has been
convicted, to order the forfeiture of whatever interest a defendant may have in the
property without having to determine exactly what that interest is. If third parties assert
that they have an interest in all or part of the property, those interests can be adjudicated
at one time in the ancillary proceeding.
This approach would also address confusion that occurs in multi-defendant cases where it
is clear that each defendant should forfeit whatever interest he may have in the property
used to commit the offense, but it is not at all clear which defendant is the actual owner
of the property. For example, suppose A and B are co-defendants in a drug and money
laundering case in which the government seeks to forfeit property involved in the scheme
that is held in B’s name but of which A may be the true owner. It makes no sense to
invest the court’s time in determining which of the two defendants holds the interest that
should be forfeited. Both defendants should forfeit whatever interest they may have.
Moreover, if under the current rule the court were to find that A is the true owner of the
property, then B would have the right to file a claim in the ancillary proceeding where he
may attempt to recover the property despite his criminal conviction. United States v. Real
Property in Waterboro, 64 F.3d 752 (1st Cir. 1995) (co-defendant in drug/money
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

App. 74

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

laundering case who is not alleged to be the owner of the property is considered a third
party for the purpose of challenging the forfeiture of the other co-defendant’s interest).
The new rule resolves these difficulties by postponing the determination of the extent of
the defendant’s interest until the ancillary proceeding. As provided in (b)(1), the court, as
soon as practicable after the verdict or finding of guilty in the criminal case, would
determine if the property was subject to forfeiture in accordance with the applicable
statute, e.g., whether the property represented the proceeds of the offense, was used to
facilitate the offense, or was involved in the offense in some other way. The
determination could be made based on the evidence in the record from the criminal trial
or the facts set forth in a written plea agreement submitted to the court at the time of the
defendant’s guilty plea, or the court could hold a hearing to determine if the requisite
relationship existed between the property and the offense. Subdivision (b)(2) provides
that it is not necessary to determine at this stage what interest any defendant might have
in the property. Instead, the court would order the forfeiture of whatever interest each
defendant might have in the property and conduct the ancillary proceeding.
Subdivision (b)(1) recognizes that there are different kinds of forfeiture judgments in
criminal cases. One type is a personal judgment for a sum of money; another is a
judgment forfeiting a specific asset. See, e.g., United States v. Voigt, 89 F.3d 1050 (3d
Cir. 1996) (government is entitled to a personal money judgment equal to the amount
involved in the money laundering offense, as well as order forfeiting specific assets
involved in, or traceable to, the offense; in addition, if the statutory requirements are met,
the government may be entitled to forfeit substitute assets); United States v. Cleveland,
1997 WL 537707 (E.D. La. Aug. 26, 1997), modified, 1997 WL 602186 (E.D.La. Sept.
29, 1997) (government entitled to a money judgment equal to the amount of money
defendant laundered in money laundering case). The finding the court is required to make
will depend on the nature of the forfeiture judgment. A number of cases have approved
use of money judgment forfeitures. The Committee takes no position on the correctness
of those rulings.
To the extent that the government is seeking forfeiture of a particular asset, such as the
money on deposit in a particular bank account that is alleged to be the proceeds of a
criminal offense, or a parcel of land that is traceable to that offense, the court must find
that the government has established the requisite nexus between the property and the
offense. To the extent that the government is seeking a money judgment, such as a
judgment for the amount of money derived from a drug trafficking offense or the amount
involved in a money laundering offense where the actual property subject to forfeiture
has not been found or is unavailable, the court must determine the amount of money that
the defendant should be ordered to forfeit.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

App. 75

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

The court may make the determination based on evidence in the record, or on additional
evidence submitted by the defendant or evidence submitted by the government in support
of the motion for the entry of a judgment of forfeiture. The defendant would have no
standing to object to the forfeiture on the ground that the property belonged to someone
else.
Under subdivision (b)(2), if the court finds that property is forfeitable, it must enter a
preliminary order of forfeiture. It also recognizes that any determination of a third
person’s interest in the property is deferred until an ancillary proceeding, if any, is held
under subdivision (c).
Subdivision (b)(3) replaces Rule 32(d)(2) (effective December 1996). It provides that
once the court enters a preliminary order of forfeiture directing the forfeiture of whatever
interest each defendant may have in the forfeited property, the government may seize the
property and commence an ancillary proceeding to determine the interests of any third
party. The subdivision also provides that the Attorney General may designate someone
outside of the Department of Justice to seize forfeited property. This is necessary because
in cases in which the lead investigative agency is in the Treasury Department, for
example, the seizure of the forfeited property is typically handled by agencies other than
the Department of Justice.
If no third party files a claim, the court, at the time of sentencing, will enter a final order
forfeiting the property in accordance with subdivision (c)(2), discussed infra. If a third
party files a claim, the order of forfeiture will become final as to the defendant at the time
of sentencing but will be subject to amendment in favor of a third party pending the
conclusion of the ancillary proceeding.
Because the order of forfeiture becomes final as to the defendant at the time of
sentencing, his right to appeal from that order begins to run at that time. As courts have
held, because the ancillary hearing has no bearing on the defendant’s right to the
property, the defendant has no right to appeal when a final order is, or is not, amended to
recognize third party rights. See, e.g., United States v. Christunas, 126 F.3d 765 (6th Cir.
1997) ( preliminary order of forfeiture is final as to the defendant and is immediately
appealable).
Because it is not uncommon for sentencing to be postponed for an extended period to
allow a defendant to cooperate with the government in an ongoing investigation, the rule
would allow the order of forfeiture to become final as to the defendant before sentencing,
if the defendant agrees to that procedure. Otherwise, the government would be unable to
dispose of the property until the sentencing took place.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

App. 76

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

Subdivision (b)(4) addresses the right of either party to request that a jury make the
determination of whether any property is subject to forfeiture. The provision gives the
defendant, in all cases where a jury has returned a guilty verdict, the option of asking that
the jury be retained to hear additional evidence regarding the forfeitability of the
property. The only issue for the jury in such cases would be whether the government has
established the requisite nexus between the property and the offense. For example, if the
defendant disputes the government’s allegation that a parcel of real property is traceable
to the offense, the defendant would have the right to request that the jury hear evidence
on that issue, and return a special verdict, in a bifurcated proceeding that would occur
after the jury returns the guilty verdict. The government would have the same option of
requesting a special jury verdict on this issue, as is the case under current law. See Rule
23(a) (trial by jury may be waived only with the consent of the government).
When Rule 31(e) was promulgated, it was assumed that criminal forfeiture was akin to a
separate criminal offense on which evidence would be presented and the jury would have
to return a verdict. In Libretti v. United States, 516 U.S. 29 (1995), however, the Supreme
Court held that criminal forfeiture constitutes an aspect of the sentence imposed in a
criminal case and that the defendant has no constitutional right to have the jury determine
any part of the forfeiture. The special verdict requirement in Rule 31(e), the Court said, is
in the nature of a statutory right that can be modified or repealed at any time.
Even before Libretti, lower courts had determined that criminal forfeiture is a sentencing
matter and concluded that criminal trials therefore should be bifurcated so that the jury
first returns a verdict on guilt or innocence and then returns to hear evidence regarding
the forfeiture. In the second part of the bifurcated proceeding, the jury is instructed that
the government must establish the forfeitability of the property by a preponderance of the
evidence. See United States v. Myers, 21 F.3d 826 (8th Cir. 1994) (preponderance
standard applies because criminal forfeiture is part of the sentence in money laundering
cases); United States v. Voigt, 89 F.3d 1050 (3rd Cir. 1996) (following Myers); United
States v. Smith, 966 F.2d 1045, 1050-53 (6th Cir. 1992) (same for drug cases); United
States v. Bieri, 21 F.3d 819 (8th Cir. 1994) (same).
Although an argument could be made under Libretti, that a jury trial is no longer
appropriate on any aspect of the forfeiture issue, which is a part of sentencing, the
Committee decided to retain the right for the parties, in a trial held before a jury, to have
the jury determine whether the government has established the requisite statutory nexus
between the offense and the property to be forfeited. The jury, however, would not have
any role in determining whether a defendant had an interest in the property to be
forfeited. This is a matter for the ancillary proceeding which, by statute, is conducted
“before the court alone, without a jury.” See 21 U.S.C. § 853(n)(2).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

App. 77

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

Subdivision (c). Subdivision (c) sets forth a set of rules governing the conduct of the
ancillary proceeding. When the ancillary hearing provisions were added to 18 U.S.C. §
1963 and 21 U.S.C. § 853 in 1984, Congress apparently assumed that the proceedings
under the new provisions would involve simple questions of ownership that could, in the
ordinary case, be resolved in 30 days. See 18 U.S.C. § 1963(1)(4). Presumably for that
reason, the statute contains no procedures governing motions practice or discovery such
as would be available in an ordinary civil case. Subdivision (c)(1) makes clear that no
ancillary proceeding is required to the extent that the order of forfeiture consists of a
money judgment. A money judgment is an in personam judgment against the defendant
and not an order directed at specific assets in which any third party could have any
interest.
Experience has shown that ancillary hearings can involve issues of enormous complexity
that require years to resolve. See United States v. BCCI Holdings (Luxembourg) S.A., 833
F.Supp. 9 (D.D.C. 1993) (ancillary proceeding involving over 100 claimants and $451
million); United States v. Porcelli, CR-85-00756 (CPS), 1992 WL 355584 (E.D.N.Y
Nov. 5, 1992) (litigation over third party claim continuing 6 years after RICO
conviction). In such cases, procedures akin to those available under the Federal Rules of
Civil Procedure should be available to the court and the parties to aid in the efficient
resolution of the claims.
Because an ancillary hearing is connected to a criminal case, it would not be appropriate
to make the Civil Rules applicable in all respects. The amendment, however, describes
several fundamental areas in which procedures analogous to those in the Civil Rules may
be followed. These include the filing of a motion to dismiss a claim, conducting
discovery, disposing of a claim on a motion for summary judgment, and appealing a final
disposition of a claim. Where applicable, the amendment follows the prevailing case law
on the issue. See, e.g., United States v. Lavin, 942 F.2d 177 (3rd Cir. 1991) (ancillary
proceeding treated as civil case for purposes of applying Rules of Appellate Procedure);
United States v. BCCI Holdings (Luxembourg) S.A. (In re Petitions of General
Creditors), 919 F.Supp. 31 (D.D.C. 1996) (“If a third party fails to allege in its petition
all elements necessary for recovery, including those relating to standing, the court may
dismiss the petition without providing a hearing”); United States v. BCCI (Holdings)
Luxembourg S.A. (In re Petition of Department of Private Affairs), 1993 WL 760232
(D.D.C. Dec. 8, 1993) (applying court’s inherent powers to permit third party to obtain
discovery from defendant in accordance with civil rules). The provision governing
appeals in cases where there are multiple claims is derived from Fed.R. Civ. P. 54(b). See
also United States v. BCCI Holdings (Luxembourg) S.A. (Petition of Banque Indosuez),
961 F.Supp. 282 (D.D.C. 1997) (in resolving motion to dismiss court assumes all facts
pled by third party petitioner to be true, applying Rule 12(b)(6) and denying
government’s motion because whether claimant had superior title turned on factual
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

App. 78

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

dispute; government acted reasonably in not making any discovery requests in ancillary
proceeding until court ruled on its motion to dismiss).
Subdivision (c)(2) provides for the entry of a final order of forfeiture at the conclusion of
the ancillary proceeding. Under this provision, if no one files a claim in the ancillary
proceeding, the preliminary order would become the final order of forfeiture, but the
court would first have to make an independent finding that at least one of the defendants
had an interest in the property such that it was proper to order the forfeiture of the
property in a criminal case. In making that determination, the court may rely upon
reasonable inferences. For example, the fact that the defendant used the property in
committing the crime and no third party claimed an interest in the property may give rise
to the inference that the defendant had a forfeitable interest in the property.
This subdivision combines and preserves two established tenets of current law. One is
that criminal forfeitures are in personam actions that are limited to the property interests
of the defendant. (This distinguishes criminal forfeiture, which is imposed as part of the
defendant’s sentence, from civil forfeiture which may be pursued as an action against the
property in rem without regard to who the owner may be.) The other tenet of current law
is that if a third party has notice of the forfeiture but fails to file a timely claim, his or her
interests are extinguished, and may not be recognized when the court enters the final
order of forfeiture. See United States v. Hentz, 1996 WL 355327 (E.D.Pa. June 20, 1996)
(once third party fails to file a claim in the ancillary proceeding, government has clear
title under 21 U.S.C. § 853(n)(7) and can market the property notwithstanding third
party’s name on the deed). In the rare event that a third party claims that he or she was
not afforded adequate notice of a criminal forfeiture action, the person may file a motion
under Rule 60(b) of the Federal Rules of Civil Procedure to reopen the ancillary
proceeding. See United States v. Bouler, 927 F.Supp.911 (W.D.N.C. 1996) (Rule 60(b) is
the proper means by which a third party may move to reopen an ancillary proceeding).
If no third parties assert their interests in the ancillary proceeding, the court must
nonetheless determine that the defendant, or combination of defendants, had an interest in
the property. Criminal defendants may be jointly and severally liable for the forfeiture of
the entire proceeds of the criminal offense. See United States v. Hurley, 63 F.3d 1 (1st
Cir. 1995) (government can collect the proceeds only once, but subject to that cap, it can
collect from any defendant so much of the proceeds as was foreseeable to that defendant);
United States v. Cleveland, 1997 WL 602186 (E.D. La. Sept. 29, 1997) (same); United
States v. McCarroll, 1996 WL 355371 at *9 (N.D. Ill. June 25, 1996) (following Hurley),
aff’d sub nom. United States v. Jarrett, 133 F.3d 519 (7th Cir. 1998); United States v.
DeFries, 909 F.Supp. 13, 19-20 (D.D.C. 1995)(defendants are jointly and severally liable
even where government is able to determine precisely how much each defendant
benefitted from the scheme), rev’d on other grounds, 129 F.3d 1293 (D.C. Cir. 1997).
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

App. 79

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

Therefore, the conviction of any of the defendants is sufficient to support the forfeiture of
the entire proceeds of the offense, even if the defendants have divided the money among
themselves.
As noted in (c)(4), the ancillary proceeding is not considered a part of sentencing. Thus,
the Federal Rules of Evidence would apply to the ancillary proceeding, as is the case
currently.
Subdivision (d). Subdivision (d) replaces the forfeiture provisions of Rule 38(e) which
provide that the court may stay an order of forfeiture pending appeal. The purpose of the
provision is to ensure that the property remains intact and unencumbered so that it may
be returned to the defendant in the event the appeal is successful. Subdivision (d) makes
clear, however, that a district court is not divested of jurisdiction over an ancillary
proceeding even if the defendant appeals his or her conviction. This allows the court to
proceed with the resolution of third party claims even as the appellate court considers the
appeal. Otherwise, third parties would have to await the conclusion of the appellate
process even to begin to have their claims heard. See United States v. Messino, 907
F.Supp. 1231 (N.D. Ill. 1995) (the district court retains jurisdiction over forfeiture matters
while an appeal is pending).
Finally, subdivision (d) provides a rule to govern what happens if the court determines
that a third-party claim should be granted but the defendant’s appeal is still pending. The
defendant is barred from filing a claim in the ancillary proceeding. See 18 U.S.C. §
1963(1)(2); 21 U.S.C. § 853(n)(2). Thus, the court’s determination, in the ancillary
proceeding, that a third party has an interest in the property superior to that of the
defendant cannot be binding on the defendant. So, in the event that the court finds in
favor of the third party, that determination is final only with respect to the government’s
alleged interest. If the defendant prevails on appeal, he or she recovers the property as if
no conviction or forfeiture ever took place. But if the order of forfeiture is affirmed, the
amendment to the order of forfeiture in favor of the third party becomes effective.
Subdivision (e). Subdivision (e) makes clear, as courts have found, that the court retains
jurisdiction to amend the order of forfeiture at any time to include subsequently located
property which was originally included in the forfeiture order and any substitute property.
See United States v. Hurley, 63 F.3d 1 (1st Cir. 1995) (court retains authority to order
forfeiture of substitute assets after appeal is filed); United States v. Voigt, 89 F.3d 1050
(3rd Cir. 1996) (following Hurley). Third parties, of course, may contest the forfeiture of
substitute assets in the ancillary proceeding. See United States v. Lester, 85 F.3d 1409
(9th Cir. 1996).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

App. 80

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

Subdivision (e)(1) makes clear that the right to a bifurcated jury trial to determine
whether the government has established the requisite nexus between the property and the
offense, see (b)(4), does not apply to the forfeiture of substitute assets or to the addition
of newly-discovered property to an existing order of forfeiture. It is well established in
the case law that the forfeiture of substitute assets is solely an issue for the court. See
United States v. Hurley, 63 F.3d 1 (1st Cir. 1995) (court retains authority to order
forfeiture of substitute assets after appeal is filed); United States v. Voigt, 89 F.3d 1050
(3d Cir. 1996) (following Hurley; court may amend order of forfeiture at any time to
include substitute assets); United States v. Thompson, 837 F.Supp. 585 (S.D.N.Y. 1993)
(court, not jury, orders forfeiture of substitute assets). As a practical matter, courts have
also determined that they, not the jury, must determine the forfeitability of assets
discovered after the trial is over and the jury has been dismissed. See United States v.
Saccoccia, 898 F.Supp. 53 (D.R.I. 1995) (government may conduct post-trial discovery
to determine location and identity of forfeitable assets; post-trial discovery resulted in
discovery of gold bars buried in defendant’s mother’s backyard several years after the
entry of an order directing the defendant to forfeit all property, up to $137 million,
involved in his money laundering offense).
GAP Report--Rule 32.2
The Committee amended the rule to clarify several key points. First, subdivision (b) was
redrafted to make it clear that if no third party files a petition to assert property rights, the
trial court must determine whether the defendant has an interest in the property to be
forfeited and the extent of that interest. As published, the rule would have permitted the
trial judge to order the defendant to forfeit the property in its entirety if no third party
filed a claim.
Second, Rule 32.2(c)(4) was added to make it clear that the ancillary proceeding is not a
part of sentencing.
Third, the Committee clarified the procedures to be used if the government (1) discovers
property subject to forfeiture after the court has entered an order of forfeiture and (2)
seeks the forfeiture of “substitute” property under a statute authorizing such substitution.
2002 Amendments
The language of Rule 32.2 has been amended as part of the general restyling of the
Criminal Rules to make them more easily understood and to make style and terminology
consistent throughout the rules. These changes are intended to be stylistic only.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

App. 81

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

2009 Amendments
Subdivision (a). The amendment responds to some uncertainty regarding the form of the
required notice that the government will seek forfeiture as part of the sentence, making it
clear that the notice should not be designated as a separate count in an indictment or
information. The amendment also makes it clear that the indictment or information need
only provide general notice that the government is seeking forfeiture, without identifying
the specific property being sought. This is consistent with the 2000 Committee Note, as
well as many lower court decisions.
Although forfeitures are not charged as counts, the federal judiciary’s Case Management
and Electronic Case Files system should note that forfeiture has been alleged so as to
assist the parties and the court in tracking the subsequent status of forfeiture allegations.
The court may direct the government to file a bill of particulars to inform the defendant
of the identity of the property that the government is seeking to forfeit or the amount of
any money judgment sought if necessary to enable the defendant to prepare a defense or
to avoid unfair surprise. See, e.g., United States v. Moffitt, Zwerdling, & Kemler, P.C., 83
F.3d 660, 665 (4th Cir. 1996) (holding that the government need not list each asset
subject to forfeiture in the indictment because notice can be provided in a bill of
particulars); United States v. Vasquez-Ruiz, 136 F.Supp. 2d 941, 944 (N.D. Ill. 2001)
(directing the government to identify in a bill of particulars, at least 30 days before trial,
the specific items of property, including substitute assets, that it claims are subject to
forfeiture); United States v. Best, 657 F.Supp. 1179, 1182 (N.D. Ill. 1987) (directing the
government to provide a bill of particulars apprising the defendants as to the time periods
during which they obtained the specified classes of property through their alleged
racketeering activity and the interest in each of these properties that was allegedly
obtained unlawfully). See also United States v. Columbo, 2006 WL 2012511 * 5 & n.13
(S.D. N.Y. 2006) (denying motion for bill of particulars and noting that government
proposed sending letter detailing basis for forfeiture allegations).
Subdivision (b)(1). Rule 32.2(b)(1) sets forth the procedure for determining if property is
subject to forfeiture. Subparagraph (A) is carried forward from the current Rule without
change.
Subparagraph (B) clarifies that the parties may submit additional evidence relating to the
forfeiture in the forfeiture phase of the trial, which may be necessary even if the forfeiture
is not contested. Subparagraph (B) makes it clear that in determining what evidence or
information should be accepted, the court should consider relevance and reliability.
Finally, subparagraph (B) requires the court to hold a hearing when forfeiture is
contested. The Committee foresees that in some instances live testimony will be needed
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16

App. 82

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

to determine the reliability of proffered information. Cf. Rule 32.1(b)(1)(B)(iii)
(providing the defendant in a proceeding for revocation of probation or supervised release
with the opportunity, upon request, to question any adverse witness unless the judge
determines this is not in the interest of justice).
Subdivision (b)(2)(A). Current Rule 32.2(b) provides the procedure for issuing a
preliminary forfeiture order once the court finds that the government has established the
nexus between the property and the offense (or the amount of the money judgment). The
amendment makes clear that the preliminary order may include substitute assets if the
government has met the statutory criteria.
Subdivision (b)(2)(B). This new subparagraph focuses on the timing of the preliminary
forfeiture order, stating that the court should issue the order “sufficiently in advance of
sentencing to allow the parties to suggest revisions or modifications before the order
becomes final.” Many courts have delayed entry of the preliminary order until the time of
sentencing. This is undesirable because the parties have no opportunity to advise the
court of omissions or errors in the order before it becomes final as to the defendant
(which occurs upon oral announcement of the sentence and the entry of the criminal
judgment). Once the sentence has been announced, the rules give the sentencing court
only very limited authority to correct errors or omissions in the preliminary forfeiture
order. Pursuant to Rule 35(a), the district court may correct a sentence, including an
incorporated forfeiture order, within seven days after oral announcement of the sentence.
During the seven-day period, corrections are limited to those necessary to correct
“arithmetical, technical, or other clear error.” See United States v. King, 368 F.Supp. 2d
509, 512-13 (D.S.C. 2005). Corrections of clerical errors may also be made pursuant to
Rule 36. If the order contains errors or omissions that do not fall within Rules 35(a) or
36, and the court delays entry of the preliminary forfeiture order until the time of
sentencing, the parties may be left with no alternative to an appeal, which is a waste of
judicial resources. The amendment requires the court to enter the preliminary order in
advance of sentencing to permit time for corrections, unless it is not practical to do so in
an individual case.
Subdivision (b)(2)(C). The amendment explains how the court is to reconcile the
requirement that it make the forfeiture order part of the sentence with the fact that in
some cases the government will not have completed its post-conviction investigation to
locate the forfeitable property by the time of sentencing. In that case the court is
authorized to issue a forfeiture order describing the property in “general” terms, which
order may be amended pursuant to Rule 32.2(e)(1) when additional specific property is
identified.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

17

App. 83

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

The authority to issue a general forfeiture order should be used only in unusual
circumstances and not as a matter of course. For cases in which a general order was
properly employed, see United States v. BCCI Holdings (Luxembourg), 69 F.Supp. 2d 36
(D.D.C. 1999) (ordering forfeiture of all of a large, complex corporation’s assets in the
United States, permitting the government to continue discovery necessary to identify and
trace those assets); United States v. Saccoccia, 898 F.Supp. 53 (D.R.I. 1995) (ordering
forfeiture of up to a specified amount of laundered drug proceeds so that the government
could continue investigation which led to the discovery and forfeiture of gold bars buried
by the defendant in his mother’s back yard).
Subdivisions (b)(3) and (4). The amendment moves the language explaining when the
forfeiture order becomes final as to the defendant to new subparagraph (b)(4)(A), where
it is coupled with new language explaining that the order is not final as to third parties
until the completion of the ancillary proceedings provided for in Rule 32.2(c).
New subparagraphs (B) and (C) are intended to clarify what the district court is required
to do at sentencing, and to respond to conflicting decisions in the courts regarding the
application of Rule 36 to correct clerical errors. The new subparagraphs add considerable
detail regarding the oral announcement of the forfeiture at sentencing, the reference to the
forfeiture order in the judgment and commitment order, the availability of Rule 36 to
correct the failure to include the forfeiture order in the judgment and commitment order,
and the time to appeal.
New subparagraph (C) clarifies the time for appeals concerning forfeiture by the
defendant or government from two kinds of orders: the original judgment of conviction
and later orders amending or refusing to amend the judgment under Rule 32.2(e) to add
additional property. This provision does not address appeals by the government or a third
party from orders in ancillary proceedings under Rule 32.2(c).
Subdivision (b)(5)(A). The amendment clarifies the procedure for requesting a jury
determination of forfeiture. The goal is to avoid an inadvertent waiver of the right to a
jury determination, while also providing timely notice to the court and to the jurors
themselves if they will be asked to make the forfeiture determination. The amendment
requires that the court determine whether either party requests a jury determination of
forfeiture in cases where the government has given notice that it is seeking forfeiture and
a jury has been empaneled to determine guilt or innocence. The rule requires the court to
make this determination before the jury retires. Jurors who know that they may face an
additional task after they return their verdict will be more accepting of the additional
responsibility in the forfeiture proceeding, and the court will be better able to plan as
well.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

18

App. 84

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

Although the rule permits a party to make this request just before the jury retires, it is
desirable, when possible, to make the request earlier, at the time when the jury is
empaneled. This allows the court to plan, and also allows the court to tell potential jurors
what to expect in terms of their service.
Subdivision (b)(5)(B) explains that “the government must submit a proposed Special
Verdict Form listing each property subject to forfeiture.” Use of such a form is desirable,
and the government is in the best position to draft the form.
Subdivisions (b)(6) and (7). These provisions are based upon the civil forfeiture
provisions in Supplemental Rule G of the Federal Rules of Civil Procedure, which are
also incorporated by cross reference. The amendment governs such mechanical and
technical issues as the manner of publishing notice of forfeiture to third parties and the
interlocutory sale of property, bringing practice under the Criminal Rules into conformity
with the Civil Rules.
Changes Made to Proposed Amendment Released for Public Comment. The
proposed amendment to Rule 32.2 was modified to use the term “property” throughout.
As published, the proposed amendment used the terms property and asset(s)
interchangeably. No difference in meaning was intended, and in order to avoid confusion,
a single term was used consistently throughout. The term “forfeiture order” was
substituted, where possible, for the wordier “order of forfeiture.” Other small stylistic
changes (such as the insertion of “the” in subpart titles) were also made to conform to the
style conventions.
In new subpart (b)(4)(C), dealing with the time for appeals, the words “the defendant or
the government” were substituted for the phrase “a party.” This portion of the rule
addresses only appeals from the original judgment of conviction and later orders
amending or refusing to amend the judgment under Rule 32.2(e) to add additional
property. Only the defendant and the government are parties at this stage of the
proceedings. This portion of the rule does not address appeals by the government or a
third party from orders in ancillary proceedings under Rule 32.2(c). This point was also
clarified in the Committee note.
Additionally, two other changes were made to the Committee Note: a reference to the use
of the ECF system to aid the court and parties in tracking the status of forfeiture
allegations, and an additional illustrative case.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

19

App. 85

Rule 32.2 Criminal Forfeiture, FRCRP Rule 32.2

Notes of Decisions (96)
Fed. Rules Cr. Proc. Rule 32.2, 18 U.S.C.A., FRCRP Rule 32.2
Including Amendments Received Through 3-1-21
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

20

App. 86

